 




 
                          TIGTA Semiannual Report to Congress 
 

       Inspector General’s 

       Message to Congress 

It gives me great pleasure to submit this Semiannual
Report to Congress summarizing the accomplishments
of the Treasury Inspector General for Tax Administration
(TIGTA) for the reporting period of October 1, 2010
through March 31, 2011. This report highlights the most
notable audits, investigations, and inspections and
evaluations performed by TIGTA as we have continued
to work diligently to provide oversight of the Internal
Revenue Service (IRS) and protect the integrity of the
Federal system of tax administration.

During this reporting period, TIGTA’s combined audit and investigative efforts has
recovered, protected, and identified monetary benefits totaling $2.08 billion. Our Office
of Audit (OA) has completed 33 audits and the Office of Investigations (OI) has closed
1,823 investigations over the past six months.

In this time of continuing economic challenge, all Americans are being asked to do more
with less. American citizens and their Government must work smarter, harder, and
better, with fewer resources and greater purpose. Against this backdrop, TIGTA must
redouble its efforts to promote economy, efficiency, and integrity in the administration of
the Internal Revenue laws. We have never felt the need for greater commitment to our
oversight of the IRS, nor has it ever been more important to improve compliance and
reduce the Tax Gap – the $345 billion difference between what taxpayers owe and what
they pay timely. Underreporting of taxes constitutes over 70 percent of the Tax Gap.

To reduce the Tax Gap, the IRS must do a better job of obtaining complete and timely
compliance data, and must develop methods to correctly interpret the data to determine
what actions are most effective in addressing taxpayer noncompliance. TIGTA audit
reports completed during this reporting period found that problems with existing IRS
practices allowed its contractors to receive payments while owing delinquent taxes; that
the IRS must increase its actions to identify, select, and examine individual tax returns
with rental real estate activity; and that the IRS could make improvements in its
publishing and mail budget. We also found ways that the IRS could reduce the number
of inaccurate information returns submitted. If the IRS will take the necessary actions,
the end results will improve compliance and reduce the Tax Gap.

We documented the challenges facing the IRS with implementing new laws. This
reporting period, our third report on the First-Time Homebuyer Credit found additional
problems with the administration of this credit, and our Interim Report on the 2011 Filing
Season uncovered challenges in several areas involving the administration of other new
laws. Implementation of the Patient Protection and Affordable Care Act presents an



                           October 1, 2010 – March 31, 2011                          Page 3 
                                              
                                   TIGTA Semiannual Report to Congress 
 
even greater challenge as it represents a totally new area of activity and enforcement
for an agency whose work has historically been devoted almost entirely to tax collection.

Meanwhile, the steady migration of the system of tax administration to the electronic
environment requires the IRS to be more vigilant in the protection of taxpayer data.
Hundreds of millions of taxpayers are e-filing their income tax returns each year and in
so doing, they entrust IRS computer systems with sensitive financial and personal data.
The Nation’s tax collectors are responsible for protecting confidential taxpayer
information from inadvertent or deliberate misuse, improper disclosure, or destruction.
TIGTA’s audits described in this report found that the IRS’s Secure Email program could
do more to improve the security of confidential taxpayer information, and that the IRS’s
systems do not entirely prevent the unauthorized use of electronic filing identification
numbers.

Responding to and preventing threats to the tax system posed by the cyber-
environment has become an increasingly important part of TIGTA’s mission. The
increased reliance on computers has also created an elevated risk of phishing scams.
Since 2008, law enforcement officials have identified more than 12,416 IRS phishing
sites, which impersonate the IRS and lure taxpayers into providing confidential
information in order to extract money from them under false pretenses. Work by our
Office of Investigations resulted in the guilty plea of a Belarusian national to charges of
conspiracy and wire fraud in a fraudulent international online tax refund scheme. As a
result of this scheme, income tax refunds were stolen from U.S. taxpayers around the
country.

Threats to taxpayers also sometimes come from those entrusted to serve them.
TIGTA’s investigative efforts led to indictments and criminal charges against corrupt IRS
employees who embezzled taxpayer payments, stole taxpayer funds, and altered
taxpayer information on IRS computers for the purposes of private financial gain.

At the same time, as the IRS remains a target for citizens’ frustration, threats of violence
directed at the IRS’s 100,000 employees at more than 700 facilities throughout the
country have increased during a time of continued financial hardship. During this
reporting period, threats have continued to escalate, with 723 reported over the past six
months. We will continue to place a priority on our oversight of IRS employee safety
and physical security.

Our work to protect the funding made available under the American Recovery and
Reinvestment Act of 2009 (Recovery Act) continues. TIGTA monitors IRS compliance
with all Recovery Act procurement requirements and ensures that the IRS uses its
Recovery Act funds for their intended purpose. Our work in this field during the
reporting period includes oversight of the Making Work Pay Credit, continued oversight
of the First-Time Homebuyer Credit, and of the Plug-in Electric and Alternative Motor
Vehicle Credits.

TIGTA joins the Nation in embracing new and increased responsibilities in an
environment full of challenge. Our Office of Audit and Office of Investigations have

Page 4                                            October 1, 2010 – March 31, 2011              
 
                          TIGTA Semiannual Report to Congress 
 
aligned in a new procurement fraud division that will protect the IRS against external
attempts to corrupt Federal tax administration. In addition, like the IRS, we are looking
internationally to build a component that will prevent waste, fraud, and abuse and shield
the tax system against threats launched from abroad.

It is a daunting mission, but one we embrace with both passion and skill as we ready
ourselves for the challenges that lie ahead. As before, I look forward to working with
Congress, the Administration, the IRS, and our auditors, investigators, evaluators,
attorneys, and support personnel as we work tirelessly to make our Nation’s tax system
more efficient, effective, and fair.



                                        Sincerely,




                                   J. Russell George 

                                   Inspector General 





                           October 1, 2010 – March 31, 2011                        Page 5 
                                              
                                   TIGTA Semiannual Report to Congress 
 




Page 6                                            October 1, 2010 – March 31, 2011     
 
                                      TIGTA Semiannual Report to Congress 
 

                                      Table of Contents 

Mission and Vision Statement ………………………………………………………….                                                                           1


Inspector General’s Message to Congress ........................................................... 3


TIGTA’s Highlights .................................................................................................. 9


TIGTA’s Profile ........................................................................................................      13

    Statutory Mandate ............................................................................................            13 

    Organizational Structure ...................................................................................              14

    Authorities .........................................................................................................     14 


Promote the Economy, Efficiency, and Effectiveness of Tax Administration ...                                                  15 

    Security of the Internal Revenue Service; Employees, Systems, and
    Facilities ............................................................................................................   16 

    Modernization of the Internal Revenue Service ................................................                            17

    Tax Compliance Initiatives ................................................................................               19 

    Implementing Health Care and Other Tax Law Changes .................................                                      22 

    Providing Quality Taxpayer Service Operations ...............................................                             23 

    Human Capital ..................................................................................................          26

    Erroneous and Improper Payments and Credits ...............................................                               27

    Taxpayer Protection and Rights .......................................................................                    30

    Leveraging Data to Improve Program Effectiveness and Reduce Costs ..........                                              31 


Protect the Integrity of Tax Administration ...........................................................                       33 

     Employee Integrity Investigations .....................................................................                  36 

     Employee and Infrastructure Security ...............................................................                     38

     External Attempts to Corrupt Tax Administration ..............................................                           41


Advancing Oversight of America’s Tax System ................................................... 45


American Recovery and Reinvestment Act of 2009 ............................................. 47


An Organization That Values Its People ................................................................ 51


Audit Statistical Reports .........................................................................................           55

     Reports With Questioned Costs ........................................................................                   55

     Reports With Recommendations that Funds Be Put to Better Use ...................                                         56

     Reports With Additional Quantifiable Impact on Tax Administration .................                                      57


Investigations Statistical Reports ..........................................................................                 59 

     Significant Investigative Achievements .............................................................                     59

     Status of Closed Criminal Investigations ..........................................................                      59 

     Criminal Dispositions ........................................................................................           60 

     Administrative Dispositions on Closed TIGTA Investigations ...........................                                   60 


                                       October 1, 2010 – March 31, 2011                                                  Page 7
 
                                                                 
                                    TIGTA Semiannual Report to Congress 
 
Appendices

Appendix I – Statistical Reports – Other ............................................................... 61 

    Audit Reports With Significant Unimplemented Corrective Actions .................. 61

    Other Statistical Reports ................................................................................... 73 


Appendix II – Audit Products ................................................................................. 75 


Appendix III – TIGTA’s Statutory Reporting Requirements .................................. 77


Appendix IV – Section 1203 Standards ……………………………………………… . 81 


Appendix V – Implementing Section 989C of the Dodd-Frank Wall Street 

Reform and Consumer Protection Act .................................................................. 83 

    Inspector General Peer Review Activity ............................................................ 83


Appendix VI – Data Tables Provided by the Internal Revenue Service ..............                                        85 

    Internal Revenue Service Memorandum ..........................................................                       85

    Report of Employee Misconduct, National Summary ........................................                             86

    Report of Employee Misconduct, Summary by Disposition Groups ..................                                      87 

    Summary of Substantiated Internal Revenue Code Section 1203 Allegations
    Recorded in Automated Labor and Employee Relations Tracking System
    (ALERTS) .........................................................................................................   88 


Glossary of Acronyms ............................................................................................ 89





Page 8                                            October 1, 2010 – March 31, 2011                                           
 
                                 TIGTA Semiannual Report to Congress 
 

                                TIGTA’s Highlights
During this reporting period, TIGTA recovered a total of $2.08 billion in financial
benefits. Through its vigilant work, the Office of Investigations successfully closed
1,823 cases, saving American taxpayers more than $1.17 billion in costs. In addition,
the Office of Audit completed 33 audits that identified over $916 million in potential
financial benefits. It is through this type of work that TIGTA is able to effectively carry
out its mission of protecting the integrity of tax administration.

Examples of High-Profile Cases From the Office of
Investigations:
IRS Revenue Agent Sentenced for Soliciting and Agreeing to Receive a Bribe

On December 16, 2010, in Minnesota, Roger Coombs was sentenced on one count of
soliciting and agreeing to receive a bribe by a public official. Coombs was sentenced to
serve 33 months in prison and three years supervised release. He was also ordered to
pay a $100 assessment and $3,000 in restitution.1

As a former Internal Revenue Service (IRS) Revenue Agent, Coombs’ official duties
included examining taxpayers’ tax filings to determine whether the taxpayers correctly
reported and paid their tax liability to the IRS.2

In early 2010, a taxpayer received official correspondence from Coombs indicating that
the taxpayer had been selected for an examination. Coombs met with the taxpayer and
a business partner of the taxpayer several times. During one meeting, and outside the
presence of the accountant, Coombs suggested to the business partners that they meet
him without their accountant. At that meeting, Coombs told the taxpayers that
approximately $60,000 was owed to the IRS, which was more than what Coombs had
previously indicated. At that point, Coombs proposed a solution to make the situation
“go away.” He asked both parties to pay him $9,700. In return for paying Coombs the
bribe, Coombs said he would arrange for the IRS to accept $11,000 instead of the
$60,000 that Coombs said was owed to the IRS.3

During two separate meetings, the taxpayers gave Coombs cash payments for the total
amount of the $9,700 bribe Coombs requested. Coombs told the taxpayers that he had
“taken care” of things at the IRS.4

This case was worked jointly by TIGTA and the Federal Bureau of Investigation.



1
  D. Minn. J. filed Dec. 20, 2010.
2
  D. Minn. Indict. filed Jun. 21, 2010.
3
  Id.
4
  Id.

                                  October 1, 2010 – March 31, 2011                      Page 9 
                                                     
                                   TIGTA Semiannual Report to Congress 
 
Oracle America to Pay the Government $46 Million to Resolve False Claims Act
Allegations Against Sun Microsystems

Oracle America Incorporated agreed to pay the Government $46 million to settle claims
that Sun Microsystems Incorporated (Sun), a corporation that merged with Oracle in
2010, submitted false claims and caused others to submit false claims to the IRS, the
General Services Administration (GSA), and other Federal agencies.5 The settlement
resolved allegations under the False Claims Act (FCA) and the Anti-Kickback Act that
Sun knowingly paid kickbacks to systems integrator companies in return for
recommendations that Federal agencies purchase Sun’s products.

Sun executed agreements with consulting companies that provided for the payment of
fees each time the companies influenced a Government agency to purchase a Sun
product. The kickback allegations were part of a larger, ongoing investigation of
Government technology vendors that resulted in settlements to date with six other
companies.6

The settlement also resolved claims under the FCA that Sun’s 1997 and 1999 GSA
Schedule contracts were defectively priced because Sun provided incomplete and
inaccurate information to GSA contracting offices during contract negotiations. In
addition, the settlement resolved the claim that the incomplete and inaccurate
information resulted in defective pricing of Sun’s contract with the U.S. Postal Service
and GSA schedule contracts held by two resellers of Sun products.

At the time Sun entered into its contracts with GSA to sell information technology
products and services to Federal agencies, applicable regulations and contract
provisions required Sun to fully and accurately disclose to GSA how it conducted
business in the commercial marketplace so that GSA could use that information to
negotiate a fair price for Government customers using the GSA contracts to purchase
Sun products and services. The defective pricing information that Sun disclosed to
GSA was subsequently relied on by the U.S. Postal Service in negotiating a contract
with Sun, as well as by GSA in negotiating contracts with two resellers of Sun products.7

Example of a High-Profile Case From the Office of Audit:
Additional Security Is Needed for the Taxpayer Secure Email Program

IRS employees and taxpayers are required to work together to ensure the security of
taxpayers’ sensitive data transmitted in email messages. If employees and taxpayers
do not follow required security policies, there are increased risks that the data could be
intercepted and accessed by unauthorized individuals or inadvertently sent to the
wrong recipient.


5
  United States Department of Justice, Office of Public Affairs Release dated Jan. 31, 2011.
6
  Id.
7
  Id.

Page 10                                            October 1, 2010 – March 31, 2011             
 
                          TIGTA Semiannual Report to Congress 
 
Although some controls, such as the installation of antivirus software on employees’
computers for the Secure Email With Taxpayers program, were in place, other
security controls were not implemented. The IRS had not implemented an
automated control to detect and prevent Sensitive But Unclassified (SBU) data in
unencrypted emails from being transmitted outside the IRS. In addition, some
employees and taxpayers were not encrypting their emails that contained SBU data.
These program violations were not reported to IRS management. Further, IRS
procedures and training lacked adequate guidance for employees to report the
violations. The IRS also did not timely correct persistent medium-risk security
vulnerabilities detected on email servers.

As a result, TIGTA recommended that the IRS:

    •	 Develop additional procedures for employees participating in the Secure Email
       With Taxpayers program to address how, when, and to whom employee and
       taxpayer secure email violations should be reported;
    •	 Update guides and training materials to include these procedures;
    •	 Amend the Memorandum of Understanding to apprise the taxpayer of the
       specific risks associated with transmitting an unencrypted email with SBU
       data; and
    •	 Issue a memorandum to all employees advising them of the disciplinary actions
       that will be taken against employees who violate IRS email policies by sending
       unencrypted emails to taxpayers who have not signed a Memorandum of
       Understanding to participate in the program.

TIGTA also recommended that the IRS ensure data leakage prevention software is
implemented by April 2012, and update the annual Information Systems Security
briefing to include the new Secure Email With Taxpayers procedures. Lastly, TIGTA
recommended that the IRS ensure medium-risk vulnerabilities detected on email
servers are appropriately tracked and, if the vulnerabilities cannot be corrected within
two months, follow security requirements to post the vulnerabilities to the appropriate
Plan of Actions and Milestones.

IRS management agreed with most of the recommendations.
Reference No. 2011-20-012




                           October 1, 2010 – March 31, 2011	                        Page 11 
                                              
                                   TIGTA Semiannual Report to Congress 
 




Page 12                                            October 1, 2010 – March 31, 2011     
 
                           TIGTA Semiannual Report to Congress 
 

                               TIGTA’s Profile 



T
       IGTA provides independent 

       oversight of the Department of the 
                    Statutory Mandate
       Treasury matters involving IRS
activities, the IRS Oversight Board, and
                                                     •	 Protect against external attempts
the IRS Office of Chief Counsel. Although
                                                        to corrupt or threaten IRS
TIGTA is placed organizationally within the
                                                        employees.
Department of the Treasury and reports to
the Secretary of the Treasury and to                 •	 Provide policy direction and
Congress, TIGTA functions independently                 conduct, supervise, and coordinate
from all other offices and bureaus within the           audits and investigations related to
Department.                                             IRS programs and operations.
                                                     •	 Review existing and proposed
TIGTA’s work is devoted to all aspects of               legislation and regulations related
activity related to the Federal tax system              to IRS programs and operations,
as administered by the IRS. By identifying              and make recommendations
and addressing IRS’s management                         concerning the impact of such
challenges, implementing the President’s                legislation or regulations.
Management Agenda and the priorities of              •	 Promote the economy and
the Department of the Treasury, TIGTA                   efficiency in the administration of
protects the public’s confidence in the tax             tax laws.
system.
                                                     •	 Prevent and detect fraud and
                                                        abuse in IRS programs and
TIGTA’s organizational structure is
                                                        operations.
comprised of the Office of the Inspector
General and five functional offices: the             •	 Inform the Secretary of the
Office of Investigations; the Office of Audit;          Treasury and Congress of
the Office of Inspections and Evaluations;              problems and deficiencies
the Office of Mission Support; and the                  identified and of the progress
Office of Chief Counsel (see chart on page              made in resolving them.
14).

TIGTA conducts audits, inspections and evaluations, and investigations designed to:

    •	 Promote the economy, efficiency, and effectiveness of tax administration; and
    •	 Protect the integrity of tax administration.




                            October 1, 2010 – March 31, 2011	                           Page 13 
                                                  
                                       TIGTA Semiannual Report to Congress 
     

                               Organizational Structure 


                                              Inspector General

                                               Principal Deputy
                                              Inspector General




                                                       Deputy
    Deputy                  Deputy                    Inspector                 Associate      Chief
   Inspector               Inspector                 General for                 Inspector    Counsel
  General for             General for                Inspections                General for
Investigations               Audit                       and                      Mission
                                                     Evaluations                  Support



                                                 Authorities
    TIGTA has all of the authorities granted under the Inspector General Act of 1978, as
    amended.8 TIGTA has access to tax information in the performance of its tax
    administration responsibilities. TIGTA also has the obligation to report potential criminal
    violations directly to the Department of Justice. TIGTA and the Commissioner of the
    IRS have established policies and procedures delineating responsibilities to investigate
    potential criminal offenses under Internal Revenue laws. In addition, the Internal
    Revenue Service Restructuring and Reform Act of 1998 (RRA 98)9 amended the
    Inspector General Act of 1978 to give TIGTA statutory authority to carry firearms,
    execute and serve search and arrest warrants, serve subpoenas and summonses, and
    make arrests as set forth in Internal Revenue Code (I.R.C.) Section (§) 7608(b)(2).




    8
     5 U.S.C.A. app. 3 (West Supp. 2010).

    9
     Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. 

    app., 16 U.S.C., and 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.). 


    Page 14                                            October 1, 2010 – March 31, 2011                         
     
                               TIGTA Semiannual Report to Congress 
 

            Promote the Economy, Efficiency, and 

             Effectiveness of Tax Administration


T
    IGTA’s Office of Audit (OA) strives to promote the economy, efficiency, and
    effectiveness of tax administration. TIGTA provides recommendations to improve
    the IRS’s systems and operations while ensuring fair and equitable treatment of
taxpayers. TIGTA’s comprehensive and independent performance and financial audits
of the IRS’s programs and operations primarily address mandated reviews and high-risk
challenges facing the IRS.

The IRS’s implementation of audit recommendations results in:

    •       Cost savings;
    •       Increased or protected revenue;
    •       Protection of taxpayers’ rights and entitlements; and
    •       More efficient use of resources.

Each year, TIGTA identifies and addresses major management challenges facing the
IRS. OA places audit emphasis on statutory coverage required by RRA 98 and other
laws, as well as areas of concern to Congress, the Secretary of the Treasury, the
Commissioner of the IRS, and other key stakeholders.

                 Audit Emphasis Areas for October 2010 through March 2011

        •    Security of the IRS; Employees, Systems, and Facilities
        •    Modernization of the IRS
        •    Tax Compliance Initiatives
        •    Implementing Health Care and Other Tax Law Changes
        •    Providing Quality Taxpayer Service Operations
        •    Human Capital
        •    Erroneous and Improper Payments and Credits
        •    Taxpayer Protection and Rights
        •    Leveraging Data to Improve Program Effectiveness and Reduce Costs



The following summaries highlight significant audits completed in each of the areas of
emphasis during this six-month reporting period.




                                October 1, 2010 – March 31, 2011                  Page 15 
                                                   
                                   TIGTA Semiannual Report to Congress 
 
Security of the Internal Revenue Service; Employees, Systems, and
Facilities
In addition to safeguarding a vast amount of sensitive financial and personal data, the
IRS must also protect approximately 100,000 employees and more than 700 facilities
throughout the country. Attacks and threats against IRS employees and facilities have
risen steadily in recent years. Dissatisfaction with the tax collection process is nothing
new, and recent events, such as the February 2010 attack on an IRS facility in Austin,
Texas, point to a surge of hostility towards the Federal Government. The ongoing
public debate regarding the recently enacted health care legislation may also lead to
increased threats against IRS employees and facilities.

Concurrent with the IRS’s monitoring of threats against its employees and facilities, the
IRS must also remain vigilant with regard to computer security, particularly as it relates
to safeguarding the privacy of confidential taxpayer information. As computer usage
continues to be inextricably integrated into core business processes, the need for
effective information system security becomes essential to ensure the confidentiality,
integrity, and availability of data. IRS computer systems process hundreds of millions of
tax returns and contain confidential tax information for over 100 million taxpayers.

The Federal Information Security Management Act (FISMA)10 requires each Federal
Government agency to report annually to the Office of Management and Budget (OMB)
and to Congress on the effectiveness of its security programs and to perform an annual
independent evaluation of its information security program and practices. The IRS has
made steady progress in complying with FISMA requirements since the law’s enactment
in 2002, and it continues to place a high priority on efforts to improve its security
program. However, TIGTA audits continue to show that the IRS still needs to take
additional actions in the areas of configuration management and contingency planning
to better secure its systems and data.

Review of the Use of the Electronic Filing Identification Number

More than 60 million individual tax returns were electronically filed in Fiscal Year (FY)
2010 by Electronic Return Originators.11 The Electronic Filing (e-File) Program enables
tax returns to be sent to the IRS in an electronic format via an authorized IRS e-File
Provider. An e-File Provider is generally the first point of contact for most taxpayers
filing a tax return through the IRS’s e-File Program. Insufficient system validations put
at risk the integrity of the e-File Program.

System validations related to the unauthorized use of Electronic Filing Identification
Numbers (EFIN) and compliance with various e-File Program requirements need
strengthening. From March 11, 2005 to October 21, 2010, there were 1,192 EFINs
reported to the IRS as compromised.

10
  Pub. L. No. 107-347, 116 Stat. 2899 (2002)(codified as amended in 44 U.S.C. §§3541-3549).
11
  Electronic Return Originator is the authorized IRS e-File Provider that originates the electronic
submission of a return to the IRS.

Page 16                                            October 1, 2010 – March 31, 2011                    
 
                               TIGTA Semiannual Report to Congress 
 
As a result, TIGTA made several recommendations for improvement. IRS management
agreed with most of the recommendations. TIGTA maintains that controls need
strengthening to prevent the unauthorized use of the EFIN.
Reference No. 2011-40-031

Modernization of the Internal Revenue Service
The Business Systems Modernization Program (“Modernization Program” or “Program”)
is a complex effort to modernize IRS technology and related business processes. It
involves integrating thousands of hardware and software components while replacing
outdated technology and maintaining the current tax system.

The Modernization Program has continued to help improve IRS operations and is
refocusing its efforts to improve business practices with new information technology
solutions. However, project development activities have not always effectively
implemented planned processes or delivered all planned system capabilities to achieve
the Modernization Program’s expectations. Management of the Modernization
Program’s cost and schedule has improved since the previous year, but more attention
must be given to the development and management of Program requirements.

Further, resolution has not yet been completely achieved for security vulnerabilities
affecting two significant systems. The IRS revised its Modernization Program and is
currently testing a prototype12 database concept for all taxpayer data. The new
approach will require the IRS to increase its employees’ information technology-related
skills, tools, and operations to effectively deliver the revised Program.

Prototype Process Improvements Will Benefit Efforts to Modernize Taxpayer
Account Administration

The mission of the Customer Account Data Engine (CADE) 2 Program is to provide
state-of-the-art individual taxpayer account processing and technologies to improve
service to taxpayers and enhance IRS tax administration. Once completed, the new
modernization environment should allow the IRS to more effectively and efficiently
update taxpayer accounts, support account settlement and maintenance, and process
refunds on a daily basis, which will contribute to improved service to taxpayers.

The CADE 2 Program Management Office created five prototype teams to demonstrate
confidence in the CADE 2 solution by verifying system viability and performance and by
defining components that will serve as the foundation for development activities. The
prototype teams generally managed their objectives effectively. The teams also
identified risks to the successful execution of the prototype plans and took steps to
overcome those barriers.


12
  This prototype is an approach to system development using an iterative process of discovering
requirements, designing, and building a trial model, examining the results, and repeating the process until
the desired solution is attained.

                                October 1, 2010 – March 31, 2011                                   Page 17 
                                                      
                                    TIGTA Semiannual Report to Congress 
 
The CADE 2 Program Management Office has been vigilant in monitoring the
prototypes to provide direction and support to development activities. The prototype
teams recognized the limits in approaching some of the original objectives and made
modifications to keep the prototype activities relevant to future CADE 2 Program
development. However, the ability of the CADE 2 Program to process individual
taxpayer accounts as envisioned cannot be determined until the prototype results and
recommendations are understood and implemented.

TIGTA recommended that the CADE 2 Program Management Office reemphasize
compliance with the elements of the CADE 2 Prototype Process to ensure planning,
execution, and reporting activities are followed and incorporate guidance to include:

    •	 Appropriately detailed work breakdown structures;
    •	 Testing plans and documentation standards that follow the Internal Revenue
       Manual and Enterprise Life Cycle guidance;
    •	 Effective management of contracting activities to ensure that issues concerning
       organizational conflicts of interest are properly managed; and
    •	 Timely completion of all necessary security documentation for contractor 

       personnel.


IRS management agreed with these recommendations and planned to take appropriate
corrective actions.
Reference No. 2011-20-001

The Sustaining Infrastructure Program Is Significantly Improved and a
Comprehensive Information Technology Infrastructure Strategy Has Been
Developed

The Sustaining Infrastructure Program centrally funds the IRS’s information technology
infrastructure investments primarily to replace computer hardware that has reached or
surpassed its useful life. The Sustaining Infrastructure Program has significantly
improved and agreed-upon prior recommendations are being implemented. Taxpayers
and IRS employees rely on the information technology infrastructure to ensure
satisfaction of tax liabilities, quick resolution of any issues, and a high level of service to
both taxpayers and the Federal Government.

TIGTA found that monthly reports are generated showing the number and value of aged
computer hardware. IRS management uses these reports to monitor their progress in
replacing the aged computer hardware. The appropriate executive steering committee
oversees the Sustaining Infrastructure Program. The IRS also approved the business
case for a new tool called the Knowledge, Incident/Problem, Service Asset
Management system which can associate information technology problem tickets with
the aged computer hardware that caused the problem. Implementation of the
Knowledge, Incident/Problem, Service Asset Management system involves replacing
the current inventory and problem management system and is scheduled to be
implemented by July 2011.


Page 18	                                            October 1, 2010 – March 31, 2011               
 
                             TIGTA Semiannual Report to Congress 
 
In addition, the IRS developed a comprehensive Information Technology Infrastructure
Strategy that will be used to improve access to data and information technology
services, responsiveness to demand, optimization, and cost effectiveness in a
sustainable manner. TIGTA made no recommendations. IRS management was
pleased with TIGTA’s comments and observations acknowledging that the Sustaining
Infrastructure Program has significantly improved.
Reference No. 2011-20-006

Tax Compliance Initiatives
Tax compliance initiatives include the administration of tax regulations, collection of the
correct amount of tax from businesses and individuals, and oversight of tax-exempt and
Government entities. Increasing voluntary taxpayer compliance and reducing the Tax
Gap13 are still the focus of many IRS initiatives. Nevertheless, the IRS still faces
significant challenges in obtaining complete and timely compliance data and developing
methods necessary to interpret the data. Even with improved data collection, however,
the IRS needs to develop broader strategies and conduct more research to determine
which actions are most effective in addressing taxpayer noncompliance.

Existing Practices Allowed IRS Contractors to Receive Payments While Owing
Delinquent Taxes

The IRS’s mission is to provide American taxpayers with top-quality service by helping
them to understand and meet their tax responsibilities and by applying the tax law with
integrity and fairness. TIGTA believes that contractors who conduct business with the
IRS should be held to a strict compliance standard particularly given the IRS’s mission
to enforce tax laws and ensure that everyone meets their obligation to pay Federal
taxes.

The IRS blocked 11 contractors with delinquent tax liabilities totaling approximately
$4.3 million from inclusion in the Federal Payment Levy Program. These contractors
received more than $356 million in payments from the IRS and approximately
$3.7 billion in payments from other Federal agencies. For eight of these contractors,
the amount of delinquent taxes that could have been collected if the tax accounts had
not been blocked from inclusion in the Federal Payment Levy Program totaled
$3.8 million.

Although delinquent taxes may indicate serious issues that could jeopardize contract
performance, they rarely preclude a contractor from obtaining a contract. Three of
these contractors owed $3.7 million in delinquent taxes when their contracts were
awarded. Further, seven of the 11 contractors did not properly follow Federal guidelines
to notify the GSA when they had a tax delinquency.



13
  The IRS defines the Tax Gap as the difference between the estimated amount taxpayers owe and the
amount they voluntarily and timely paid for a tax year.

                              October 1, 2010 – March 31, 2011                              Page 19 
                                                  
                                   TIGTA Semiannual Report to Congress 
 
As a result, TIGTA recommended that the IRS review its current process to identify
opportunities to expedite levying Federal contractor cases in a blocked status and
ensure timely enforcement of those in a suspended collection status.

IRS management agreed with the recommendations, but did not agree with the reported
outcome measure of $3.8 million. The IRS stated that the calculation that TIGTA used
to determine the amount of uncollected revenue included cases in a suspended
collection status as available for levy through the Federal Payment Levy Program. The
IRS also stated that it has a responsibility to investigate the merit of a taxpayer’s claim
before initiating enforced collection activity.

TIGTA agreed that the IRS should investigate the merit of a taxpayer’s claim before
initiating enforced collection activity. However, the results showed that contractors were
in a suspended collection status for an average of eight months while the IRS evaluated
whether the information the contractor provided would resolve the tax liability. TIGTA
believes that the IRS could improve the timeliness of these cases by taking a more
active enforcement approach to suspend payments to contractors if they are not making
attempts to resolve their tax liability within a reasonable time period.
Reference No. 2011-30-013

Targeted Compliance Efforts May Reduce the Number of Inaccurate Information
Returns Submitted by Government Entities

The hundreds of thousands of information returns with inaccurate names and taxpayer
identification numbers that are submitted annually by Government entities create
opportunities for individuals to underreport income and avoid the scrutiny of the IRS.
Those individuals who take advantage of such opportunities can create unfair burdens
on honest taxpayers and diminish the public’s respect for the tax system.

TIGTA recognized that it would be very difficult, if not impossible, to ensure that every
information return submitted contains an accurate name and taxpayer identification
number. However, focusing the IRS’s efforts on the small number of Government
entities that submit the largest portion of inaccurate information returns has the potential
to deliver other benefits. Specifically, such a focus would likely provide the IRS with
additional information for computer matching compliance programs. This, in turn, may
provide the IRS with opportunities to increase tax revenues by detecting and pursuing
additional individuals who underreport income.

Therefore, TIGTA recommended that the IRS expand the criteria used to select
Government entities for compliance activities to include the volume of information
returns submitted with inaccurate names or taxpayer identification numbers. TIGTA
also recommended that compliance activities for entities selected based on the volume
of inaccurate returns not be closed until IRS employees assess the reasons for the
inaccuracies and determine whether any corrective actions should be taken. To help
ensure that corrective actions are evaluated during subsequent compliance activities,
the IRS should thoroughly document the results of these assessments within the
compliance case files.

Page 20                                            October 1, 2010 – March 31, 2011             
 
                           TIGTA Semiannual Report to Congress 
 
IRS management agreed with the recommendations and stated that corrective actions
have been taken.
Reference No. 2011-30-019

Actions Are Needed in the Identification, Selection, and Examination of Individual
Tax Returns With Rental Real Estate Activity

The IRS’s Examination function plays a vital role in its mission of promoting voluntary
compliance with tax laws. Given the magnitude of underreporting, even small
improvements in the IRS’s examination of tax returns with rental real estate activity
could increase taxpayer compliance and generate substantial revenue to the Federal
Government to reduce the Tax Gap. In addition, increased tax compliance can raise
the public’s confidence in the IRS’s ability to enforce tax laws in a fair, equitable, and
consistent manner.

The IRS should increase its examinations of tax returns with losses from rental real
estate activity. TIGTA found that the criteria used to select tax returns included in the
Compliance Initiative Programs (CIP) were producing results that were more productive
than tax returns selected for examination based on other criteria. TIGTA determined
that if the IRS performed more examinations through their rental real estate CIPs, it
could increase the potential tax assessments by $27.3 million over a five-year period.

TIGTA also found that requiring taxpayers with prior year unallowed Passive Activity
Losses to submit Passive Activity Loss Limitations forms (Form 8582) and increasing
the amount of data input from tax returns to the Master File would further improve the
efficiency of programs used to select tax returns with questionable real estate activities
for further examination.

Therefore, TIGTA recommended that the IRS:

    •	 Conduct an analysis to determine the population of tax returns with rental real
       estate activity that meet the criteria for inclusion in the CIPs;
    •	 Revise the instructions for Form 8582 to require all taxpayers with prior year
       unallowed Passive Activity Losses to submit the form with their tax return; and
    •	 Ensure that the information taxpayers provide to report the net amount of income
       earned or lost from being a real estate professional is transcribed.

IRS management agreed with the recommendations and planned to take appropriate
corrective actions. However, the IRS disagreed with the proposed monetary outcome
measures. TIGTA computed the outcomes conservatively using historical data from the
Examination program, and maintained that the potential $27.3 million of increased
revenue over a five-year period was reasonable, considering the assumptions used to
calculate the estimate.
Reference No. 2011-30-005




                            October 1, 2010 – March 31, 2011	                         Page 21 
                                               
                                   TIGTA Semiannual Report to Congress 
 
Implementing Health Care and Other Tax Law Changes
Each filing season14 tests the IRS’s ability to implement tax law changes made by
Congress. It is during the filing season that most individuals file their income tax returns
and contact the IRS with questions about specific tax laws or filing procedures.
Correctly implementing late tax law changes remains a significant challenge because
the IRS must often act quickly to: assess the changes and determine the necessary
actions to ensure all legislative requirements are satisfied; create new or revise various
tax forms, instructions, and publications; revise internal operating procedures; and
reprogram major computer systems used for processing returns.

Congress frequently changes tax laws, so some level of change has become a normal
part of the IRS’s operating environment. Although the IRS has generally been able to
adapt and react to tax law changes, the new laws do have a major effect on how the
IRS conducts its activities, determines resource requirements, and progresses toward
meeting its strategic goals. While the IRS has recognized the increasing complexity of
tax administration in formulating its strategic plan, it has also acknowledged the
impossibility of predicting with 100 percent accuracy the timing and extent of the impact
of changes in tax laws. As such, the IRS will continue to face significant challenges in
its efforts to respond quickly, accurately, and effectively to tax law changes.

Interim Results of the 2011 Filing Season

As of March 4, 2011, the IRS received nearly 60.5 million tax returns – 53.9 million (89
percent) were e-filed and nearly 6.7 million (11 percent) were filed on paper. The IRS
has issued nearly 52.6 million tax refunds totaling approximately $161.3 billion.

The passage of late legislation resulted in the IRS having Electronic Return Originators
hold approximately 6.5 million e-file tax returns to be transmitted on February 14, 2011.
In addition, the IRS held approximately 100,000 paper tax returns received prior to
February 14, 2011.

TIGTA’s review identified that several programming errors resulted in the incorrect
populating of the IRS’s computer records. Programming errors also resulted in the
issuance of erroneous First-Time Homebuyer Credits and Non-Business Energy
Property Credits.

In addition, the IRS has received returns from 9,859 individuals claiming over $124
million in Adoption Credits, with 6,974 (71 percent) of the claims either having invalid,
insufficient, or missing documentation to support the legitimacy of these claims. The
IRS did not act on TIGTA’s recommendation to seek authority to disallow claims without
proper documentation. As such, each of these claims will be sent to the IRS’s
Examination function.



14
     The period from January 1 through April 15 when most individual income tax returns are filed.

Page 22                                            October 1, 2010 – March 31, 2011                   
 
                             TIGTA Semiannual Report to Congress 
 
Furthermore, as of March 4, 2011, the IRS had identified 335,341 tax returns with $1.9
billion claimed in fraudulent refunds and prevented the issuance of $1.8 billion
(97 percent) of those fraudulent refunds. The IRS also selected 63,501 tax returns filed
by prisoners for fraud screening, representing an 88 percent increase compared to last
filing season.

Finally, during visits to 26 different Taxpayer Assistance Centers (TAC) between
November 2010 and February 2011, assistors answered all 35 tax law questions
accurately. However, TIGTA auditors waited an average of 62 minutes before they
received assistance and, on five occasions, TIGTA auditors who visited three different
TACs were turned away or denied services and asked to return another day.

This report was prepared to provide interim information only. Therefore, no
recommendations were made in the report.
Reference No. 2011-40-032

Providing Quality Taxpayer Service Operations

In July 2005, Congress requested that the IRS develop a five-year plan, to include an
outline of how the IRS would improve the service that it provides to taxpayers as well as
a detailed list of which services it should provide. The IRS developed the Taxpayer
Assistance Blueprint, which focuses primarily on services that support the needs of
taxpayers who file or should file the Form 1040 series tax returns.15 The Blueprint
includes performance measures, service improvement initiatives, and an
implementation strategy for improving future service investment decisions. The IRS has
begun implementing the Blueprint, but much of its implementation depends on the
availability of future funding.

The Department of the Treasury and the IRS recognize that the delivery of effective
taxpayer service has a significant impact on voluntary tax compliance. Answering
taxpayers’ questions to assist them in the correct preparation of their tax returns
reduces the need to send notices and correspondence when taxpayers make errors.
Taxpayer service also reduces unintentional noncompliance and shrinks the need for
future collection activity. The IRS continues to focus on the importance of improving
service by emphasizing it as a main goal in its strategic plan, including seeking
innovative ways to simplify or eliminate processes that unnecessarily burden taxpayers
or Government resources.




15
  The Form 1040 series tax returns include any IRS tax forms that begin with “1040” such as the
U.S. Individual Income Tax Return (Form 1040), U.S. Individual Income Tax Return (Form 1040-A), and
Income Tax Return for Single and Joint Filers With No Dependents (Form 1040EZ).

                              October 1, 2010 – March 31, 2011                               Page 23 
                                                   
                                    TIGTA Semiannual Report to Congress 
 
The Taxpayer Assistance Centers Are Not Located to Effectively Serve the
Maximum Number of Taxpayers

The IRS provides taxpayers the option of obtaining personal, face-to-face tax
assistance at 401 TACs nationwide. IRS employees who work in the TACs assist
taxpayers by interpreting tax laws and regulations, preparing certain individual tax
returns, resolving inquiries on taxpayer accounts, accepting payments, and providing
other services designed to minimize the burden on taxpayers in satisfying their tax
obligations. It is important that TACs be optimally located to serve the most taxpayers.
Management information is essential to effectively oversee the TACs.

The IRS acknowledges that the locations of most TACs have not changed
significantly since FY 2000, and that it has not kept pace with shifts in population and
demographics. Currently, 35 percent of the United States population does not live
within 30 minutes of a TAC. This represents more than 100 million taxpayers who
do not have convenient access to a TAC. Conversely, 28 percent of the United
States population lives within 30 minutes of more than one TAC.

As of October 2010, no actions had been taken to combine, relocate, or close the TACs.
IRS officials cited budget constraints and legislative concerns as reasons that the IRS
had not moved forward. This has caused the IRS to delay conducting any cost-benefit
or return-on-investment analyses needed to make any recommendations regarding
combining, relocating, or closing the TACs.

The IRS had not validated the data used in the current Geographic Coverage Model.16
Without clear documentation of the methodology used, it is difficult to determine if the
results of the Geographic Coverage Model are reliable. In addition, it would be difficult
to compare results over a period of time.

As a result, TIGTA recommended that the IRS:

     •	 Validate the data used in the Geographic Coverage Initiative17 process and
        ensure that all decisions, along with the data used and methodologies for making
        the decisions, are supported and documented; and
     •	 Identify opportunities to better align the TACs with taxpayer needs and complete
        the evaluative process in the Geographic Footprint Initiative,18 including a cost-
        benefit analysis, return-on-investment analysis, taxpayer impact assessment,
        stakeholder input, and communication plan.




16
   This Model is part of the Blueprint and is used to better identify optimal TAC locations.

17
   This Initiative is part of the Blueprint and was designed to use specific information to develop a 

repeatable process that can be used to ensure there is TAC coverage for service delivery. 

18
   This Initiative is part of the Blueprint and is used to identify opportunities to better align taxpayer needs 

with resource allocations using demographic variables to determine the optimal placement of the TACs.


Page 24	                                            October 1, 2010 – March 31, 2011                                  
 
                           TIGTA Semiannual Report to Congress 
 
The IRS agreed with the recommendations and planned to take appropriate corrective
actions.
Reference No. 2011-40-022

Multiple Channels Are Used to Provide Information to Small-Business Taxpayers,
but More Information Is Needed to Understand Their Needs

The IRS’s Small Business/Self-Employed (SB/SE) Division serves approximately
57 million taxpayers. It supports the IRS’s goal to improve customer service by
educating and informing these taxpayers of their tax obligations, developing
educational products and services, helping them to understand and comply with
applicable laws, and protecting the public’s interest by applying the tax law with integrity
and fairness to all.

TIGTA found that research is needed to identify the needs and preferences of small-
business taxpayers. The IRS is conducting research on individual taxpayers to
incorporate taxpayer needs in making service improvement decisions, but it has only
begun to devote sufficient resources to conduct comparable research to determine the
needs of small-business taxpayers.

The IRS is also taking steps to improve customer service to small-business and self-
employed taxpayers. Outreach to small-business taxpayers is based on multiple
sources and delivered through a variety of channels. The IRS has developed a process
to help determine which services and information to provide to these taxpayers. This
allows the IRS to extend outreach and education and deliver information and materials
through various channels.

However, TIGTA found that the Issue Management Resolution System, which is used to
track significant issues and identify trends, is not complete. Employees do not always
appropriately enter issues, and the System does not help the IRS identify industry
needs because the affected industry was identified for only 25 percent of the national
issues submitted in Calendar Year 2009. Further, 14 percent of the records were
missing from the Outreach Initiative Database.

TIGTA recommended that the IRS:

    •	 Evaluate the effectiveness of the industry codes in the Issue Management 

       Resolution System; and 

    •	 Ensure that sufficient preventive controls are activated for the Outreach Initiative
       Database to provide an adequate audit trail to record changes or deletions as
       well as the associated reasons.

The IRS agreed with the recommendations and planned to take appropriate corrective
actions.
Reference No. 2011-40-010



                            October 1, 2010 – March 31, 2011	                        Page 25 
                                               
                                   TIGTA Semiannual Report to Congress 
 
Human Capital
Human capital is the Federal Government’s most critical asset. At a time when the
Federal Government is preparing for increased retirements and facing challenges such
as health care reform, the recruitment of new employees and retention of existing
employees plays a key role in ensuring the maintenance of a quality workforce capable
of meeting the needs of the American public. Like many Federal agencies, the IRS is
faced with the major challenge of replacing existing talent because of a large number of
retirements expected over the next several years. Of the approximately 100,000
employees, including 9,100 managers that the IRS employs, more than half have
reached age 50 and can retire within 10 years. In addition, 39 percent of IRS
executives are already eligible for retirement. Replacing these employees represents a
significant challenge since many possess unique skills and institutional knowledge that
will be difficult to replace.

The IRS’s challenge of having the right people in the right place at the right time is
made more difficult by many complex internal and external factors. The work performed
by IRS employees continually requires greater expertise as tax laws become more
complex, manual systems used to support tax administration become computer-based,
and attempts by taxpayers and tax practitioners to evade compliance with the tax laws
become more sophisticated. The IRS must also compete with other Government
agencies and private industry for the same human resources, a difficult prospect as
younger generations of employees switch between jobs more frequently than
employees in the past. Further, budget constraints, legislative changes, and economic
shifts can create unforeseen challenges for the IRS in addressing its long-term human
capital issues.

The Impact of the Frontline Leader Readiness Program on Succession Planning
Should Be Determined

The IRS created the Frontline Leader Readiness Program (the Program) to identify and
develop highly skilled nonmanagers interested in assuming leadership responsibilities.
However, it is currently not possible for the IRS to determine whether the Program
provides a pool of qualified candidates ready for promotion or the overall impact of the
Program on succession planning. Evaluating the success of the Program would enable
IRS management to make informed decisions to ensure that upcoming leadership
vacancies are filled in a timely manner with qualified leaders who can address the
challenges of the future, which will help to preserve public confidence in the IRS’s ability
to fulfill its mission.

The IRS began the Program in Calendar Year 2000 to identify and develop
high-potential, motivated employees for frontline manager positions. The Program
takes nine months to complete and includes classroom training sessions, outside
reading assignments, online training courses, a shadow manager assignment, and an
acting assignment.



Page 26                                            October 1, 2010 – March 31, 2011             
 
                                 TIGTA Semiannual Report to Congress 
 
The IRS is taking action to obtain feedback from the Program graduates and their
managers. Overall, participants and managers generally believe the Program is
beneficial in helping employees prepare for frontline management. However, the IRS
does not generally assess graduates’ readiness for promotion upon completion of the
Program or measure the impact of the Program on succession planning. If the IRS
assessed the promotion potential of the Frontline Leader Readiness Program graduates
and measured Program’s impact, it could better determine its bench strength (the
relationship between the number of employees ready for management and the number
of critical management positions) for the frontline manager position and provide
valuable feedback to graduates.

TIGTA recommended that the IRS:

      •	 Require an assessment of readiness for promotion for the Program graduates
         interested in management;
      •	 Analyze these assessments to determine whether changes to the Program are
         needed and develop goals and measures to determine the Program’s impact on
         succession planning; and
      •	 Develop a data collection process to capture all necessary information from the
         operating divisions/functional offices to accurately measure the impact of the
         Program.

IRS management agreed with the recommendations and planned to take appropriate
corrective actions.
Reference No. 2011-10-015

Erroneous and Improper Payments and Credits
As defined by the Improper Payments Information Act of 2002,19 an improper payment
is any payment that should not have been made or that was made in an incorrect
amount (including overpayments and underpayments) under statutory, contractual,
administrative, or other legally applicable requirements. It includes any payment to an
ineligible recipient, any payment for an ineligible service, any duplicate payment,
payments for services not received, and any payment that does not account for
applicable discounts. For the IRS, erroneous and improper payments generally involve
improperly paid refunds, tax-return filing fraud, or overpayments to vendors or
contractors.

The Administration has emphasized the importance of reducing improper payments. In
November 2009, the President issued Executive Order 13520, which included a
strategy to reduce improper payments by increasing transparency, holding agencies
accountable, and creating strong incentives for compliance.20 Recently, the Improper



19
     Pub. L. No. 107-300, 116 Stat. 2350.
20
     74 Fed. Reg. 62201 (Nov. 25, 2009).

                                  October 1, 2010 – March 31, 2011	                Page 27 
                                                     
                                    TIGTA Semiannual Report to Congress 
 
Payments Elimination and Recovery Act of 201021 placed additional requirements on
Federal agencies to reduce improper payments.

Reduction Targets and Strategies Have Not Been Established to Reduce the
Billions of Dollars in Improper Earned Income Tax Credit Payments Each Year

The Government Accountability Office has listed the Earned Income Tax Credit (EITC)
Program as having the second highest dollar amount of improper payments of all
Federal programs. The IRS has made little improvement in reducing EITC improper
payments since 2002, the year it was first required to report estimates of these
payments to Congress. The IRS continues to report that 23 to 28 percent of EITC
payments are issued improperly each year. In FY 2009, this equated to $11 to $13
billion in EITC improper payments.

Executive Order 13520 requires that the IRS intensify its efforts and set targets to
reduce EITC improper payments. The IRS’s report to TIGTA did not include any
quantifiable targets to reduce EITC improper payments. IRS management noted that
reduction targets were not set because the IRS had to balance enforcement efforts
among different taxpayer income levels. The IRS stated that its new efforts to regulate
tax return preparers will reduce the improper payment rate. However, it is unknown
whether the regulation of tax return preparers will result in a significant reduction in
EITC improper payments.

TIGTA conducted a number of audits that have provided the IRS with specific actions
that could be taken to reduce improper payments. While the IRS has implemented
some of TIGTA’s recommendations, it has not taken actions to address key
recommendations aimed at preventing or reducing EITC improper payments.
TIGTA also found that the methodology used to compute the FY 2009 EITC improper-
payment rate provides a valid estimate of EITC overpayments. The IRS used results
from its National Research Program to estimate the 2009 EITC improper payment rate.
While one goal of the National Research Program may be to identify noncompliance,
the statistical nature of the study provides the IRS with the opportunity to estimate EITC
underpayments.

TIGTA recommended that the IRS:

      •	 Establish quantifiable reduction targets and strategies to meet those targets as
         required by Executive Order 13520; and
      •	 Use the National Research Program sample to estimate instances in which the
         IRS incorrectly pays less of the EITC than the taxpayer claims (underpayments).

IRS management agreed with the first recommendation, stating that the tax return
preparer initiative will enable the IRS to have a baseline against which it can set
meaningful reduction targets. The IRS agreed in concept with the second
recommendation and planned to explore whether using the National Research Program

21
     Pub. L. No. 111-204, 124 Stat. 2224.

Page 28	                                            October 1, 2010 – March 31, 2011          
 
                           TIGTA Semiannual Report to Congress 
 
sample to estimate underpayments is possible and practical. The IRS also noted that
its focus on tax return preparers would serve to improve EITC tax returns and further
reduce EITC errors.

TIGTA agreed that the regulation of tax-return preparers would have some impact on
reducing EITC improper payments. Nonetheless, the IRS’s report did not provide
details on when or how the IRS planned to measure the impact of the tax return
preparer strategy on EITC improper payments. As noted in TIGTA’s report, the IRS had
just begun implementing the tax return preparer strategy and did not anticipate the
strategy would be fully implemented until 2014. Using IRS estimates for FY 2009, it is
likely that the IRS will have issued anywhere from $55 billion to $65 billion in improper
payments by FY 2014.

The loss of billions of dollars in improper EITC payments annually calls for more
aggressive and immediate actions to reduce improper payments. Executive Order
13520 requires that the IRS intensify its efforts and sets targets to reduce EITC
improper payments. The IRS has not met this requirement, and as a result, the risk
remains high that no significant improvement will be made in reducing improper EITC
payments.
Reference No. 2011-40-023

Significant Problems Still Exist With the Internal Revenue Service’s Efforts to
Identify Prisoner Tax Refund Fraud

Refund fraud committed by prisoners is increasing at a significant rate. The number of
fraudulent prisoner tax returns identified by the IRS has more than doubled from 18,103
tax returns in Calendar Year 2004, to 44,944 tax returns in Calendar Year 2009.
Fraudulent refunds claimed by prisoners rose from $68.1 million to $295.1 million during
the same period.

TIGTA’s review identified that, as of October 2010, the IRS had not completed required
agreements to allow it to disclose prisoner tax return information to prison officials. As a
result, no information had been disclosed to either the Federal Bureau of Prisons or
State Departments of Corrections.

In addition, the Calendar Year 2009 Report to Congress on prisoner fraud was
incomplete. The report stated that the IRS identified 44,944 fraudulent prisoner tax
returns during Calendar Year 2009. However, the processes the IRS uses to identify
prisoner tax returns may result in the IRS understating the amount of prisoner fraud. In
addition, the process used by the IRS’s Criminal Investigation function to compile the
2009 prisoner data file identified a lack of managerial oversight to ensure the accuracy
and reliability of this file.

As a result, TIGTA recommended that the IRS work with the Department of the
Treasury to seek legislation to extend the period of time that the IRS has to disclose
prisoner tax return data to the Federal Bureau of Prisons and State prison officials.
TIGTA also recommended that the IRS:

                           October 1, 2010 – March 31, 2011                          Page 29 
                                               
                                    TIGTA Semiannual Report to Congress 
 
    •	 Revise the annual report to provide Congress with a complete assessment of
       potential prisoner fraud;
    •	 Ensure that all tax returns filed by prisoners are processed through the Electronic
       Fraud Detection System and receive a prisoner indicator;
    •	 Revise prisoner filters to validate wages and withholding associated with
       prisoners incarcerated for a year who filed tax returns claiming a refund; and
    •	 Develop a process to assess the reliability (accuracy and completeness) of data
       received from Federal and State prisons.

IRS management agreed with most of the recommendations.
Reference No. 2011-40-009

Taxpayer Protection and Rights

The IRS must ensure that tax compliance activities are balanced against the rights of
taxpayers to receive fair and equitable treatment. The IRS continues to dedicate
significant resources and attention to implementing the taxpayers’ rights provisions of
RRA 98. In general, the IRS has improved its compliance with these statutory
taxpayers’ rights provisions. However, TIGTA audits continue to show that there are
circumstances in which the IRS can better protect taxpayers’ rights.

The Income Verification Express Services Program Needs Improvements to
Better Protect Tax Return Information

Borrowers cannot obtain loans unless they sign a consent that allows the IRS to
disclose their nonpublic income information to their lenders. Lenders can obtain this
income information from the Income Verification Express Services (IVES) Program.
Taxpayers’ Personally Identifiable Information is at risk of theft or misuse when
taxpayers submit IVES Program requests for tax return information through third parties
because controls are insufficient to ensure taxpayer information that the IRS provides to
IVES Program participants is protected.

As a result, TIGTA recommended that the IRS:

    •	 Develop and enforce minimum requirements for the IVES Program;
    •	 Update the IVES Program application to include a statement that taxpayer
       information can only be used for the purpose the taxpayer intended as well as
       ensuring the current version is provided to all applicants, posted on IRS.gov, and
       the only version accepted;
    •	 Within one year of revising the IVES Program application, contact and obtain a
       completed application from all current IVES Program participants; and
    •	 Revise transcript request forms to allow taxpayers to limit lenders’ disclosure of
       their tax return information to nonaffiliated third parties only in the course of
       processing or selling their loan.




Page 30	                                            October 1, 2010 – March 31, 2011          
 
                           TIGTA Semiannual Report to Congress 
 
IRS management agreed with the recommendations and planned to take appropriate
corrective actions.
Reference No. 2011-40-014

Taxpayer Payments Were Improperly Transferred to the Excess Collection File

Taxpayer payments that cannot be applied to the proper taxpayer account are
transferred to the Excess Collection File (XSF). The IRS did not always properly
document and approve requests for transfers or adequately notify taxpayers of their
right to have payments refunded before it transferred the payments to the XSF. This
situation creates an increased risk that taxpayers will not recover their payments.

As a result, TIGTA recommended that the IRS improve the guidance and forms
associated with the XSF program to ensure more consistent processing, approval, and
communication with taxpayers.

IRS management agreed with the recommendations and planned to take appropriate
corrective actions.
Reference No. 2011-30-020

Leveraging Data to Improve Program Effectiveness and Reduce Costs
While the IRS has made progress in using its data to improve program effectiveness
and reduce costs, this area continues to be a major challenge. The IRS lacks a
comprehensive, integrated system that provides accurate, relevant, and timely financial
and operating data that can be used to evaluate performance measures, productivity,
and the associated costs of IRS programs. In addition, the IRS cannot produce timely,
accurate, and useful information needed for day-to-day decisions, hindering its ability to
address financial management and operational issues to fulfill its responsibilities.

Publishing and Mail Costs Need to Be More Effectively Managed to Reduce
Future Costs

Part of the IRS’s mission is to help taxpayers understand and meet their tax
responsibilities. To assist taxpayers in complying with their tax filing obligations, the
IRS provides forms with instructions and publications to individual and business
taxpayers. The FY 2010 publishing and mail budget exceeded $272 million.

The IRS is reducing publishing and mail costs, however recent reductions have resulted
from budget cuts and not as part of a long-term strategy. In response to the cost
savings proposed in the FY 2011 budget request, the IRS formed a task force to identify
ways to achieve cost savings. The task force proposed 25 actions to reduce publishing
and mail costs and laid the foundation for long-term implementation of cost reductions
for FY 2011 and beyond.




                            October 1, 2010 – March 31, 2011                          Page 31 
                                               
                                    TIGTA Semiannual Report to Congress 
 
However, the task force proposal did not include documentation to show the
methodology used to make the proposals, how the estimates were calculated or
validated, or how the IRS will measure the results or the cost savings of the proposals.

The task force believed that reducing the mailings of forms instead of eliminating them
was a more cautious approach, affecting fewer taxpayers in the short term.
Nevertheless, IRS executives decided to eliminate all mailings of tax packages for U.S.
Individual Income Tax Return (Form 1040), partnerships, and corporations in FY 2011
in order to meet the cost savings presented in the FY 2011 budget request. This could
increase burden and reduce compliance for those taxpayers who rely on receiving these
packages by mail.

As the IRS moves forward with a proposed cost savings plan or pursues other methods
of saving publishing and mail costs, it needs to implement sufficient controls and
procedures to ensure that the methodology for the decisions are documented and that
the data used are accurate and complete. In addition, these controls should be part of a
long-term strategy to continually assess publishing and mail costs and identify
opportunities for cost reductions and efficiencies.

TIGTA recommended that the IRS:

    •	 Establish and implement a system of internal controls to ensure that savings and
       cost data related to the elimination or reduction of mailing tax products are
       current and reliable; and
    •	 Develop a strategy to ensure that publishing and mail costs are continually
       evaluated. This strategy should include goals and measures, as well as steps to
       monitor the effect on taxpayer burden and compliance.

IRS management agreed with the recommendations and stated that corrective actions
had been taken.
Reference No. 2011-40-025




Page 32	                                            October 1, 2010 – March 31, 2011        
 
                          TIGTA Semiannual Report to Congress 
 

    Protect the Integrity of Tax Administration

T     IGTA’s Office of Investigations’ (OI) unique statutory mandate includes the
      responsibility to protect the revenue that funds the Federal Government. TIGTA’s
      work touches every citizen of the United States every day, because the revenue it
protects provides for the health, safety, welfare, and common defense of every
American. TIGTA’s statutory mandate is substantially broader than that of most Offices
of Inspectors General. While all Offices of Inspectors General combat waste, fraud, and
abuse, TIGTA is also statutorily charged with protecting the integrity of Federal tax
administration.

To achieve its broad mandate, OI performs a variety of functions, including:

    •	 Investigating allegations of criminal activity that adversely impacts Federal tax
       administration;
    •	 Investigating assaults on, and threats to, IRS employees, facilities, and 

       operations;

    •	 Providing armed escorts for IRS employees in certain dangerous situations;
    •	 Investigating allegations of serious administrative misconduct by IRS employees;
    •	 Initiating proactive work to detect criminal or administrative misconduct in the
       administration of IRS programs;
    •	 Working closely with IRS employees, tax practitioners, and community groups to
       educate them about indicators of integrity problems or fraud in IRS programs;
    •	 Operating an aggressive Criminal Intelligence Program to proactively identify and
       mitigate threats to IRS employees or to the continuity of IRS operations;
    •	 Working proactively to identify and mitigate threats to IRS information systems;
    •	 Protecting the increasingly important electronic environment in which Federal tax
       administration is conducted;
    •	 Investigating waste, fraud, and abuse involving IRS procurements and 

       contracting; 

    •	 Maintaining a national complaint center that is accessible via telephone or
       Internet, and serves as the hub for receiving and addressing complaints of waste,
       fraud, abuse, and misconduct involving IRS employees, programs, and
       operations;
    •	 Maintaining a robust forensic science program to analyze the physical and digital
       evidence gathered during investigations;
    •	 Managing the Treasury-wide land mobile radio program; and
    •	 Employing specialized technical and investigative equipment, training, and 

       techniques to enhance investigative outcomes. 





                           October 1, 2010 – March 31, 2011	                     Page 33 
                                              
                                   TIGTA Semiannual Report to Congress 
 
                   TIGTA’s Investigative Performance Model 

TIGTA’s investigations are based on a performance model that focuses on OI’s three
primary areas of investigative responsibility: employee integrity; employee and
infrastructure security; and external attempts to corrupt Federal tax administration. The
use of the performance model enables OI to direct its resources to the most critical
areas, as illustrated below.




OI’s strategic plan is designed to adapt to the IRS’s constantly evolving operations and
to mitigate intensified risks associated with responses to threats and attacks directed
against IRS employees and infrastructure, and to protect the integrity of IRS operations
by detection and deterrence of waste, fraud, abuse, or misconduct. OI accomplishes its
strategic mission objectives with performance measures, defined as the percentage of
results from investigative activities which most accurately align with the mission of the
organization, and which provide the greatest impact on the protection of the integrity of
Federal tax administration.

During this reporting period, OI processed 4,315 complaints, and opened 1,822
investigations. OI remains dedicated to work impacting integrity programs, threat and
assault investigations, and other criminal and administrative investigations such as
bribery, theft, impersonation, taxpayer abuses, and false statements. Between October
1, 2010 and March 31, 2011, OI closed 1,823 investigations which included 705 cases
of employee misconduct referred for action and 102 cases accepted for criminal
prosecution. OI investigations also resulted in the identification of 437 taxpayers who
may pose a danger to IRS employees and infrastructure. OI’s contract and
procurement investigations continue to produce high dollar recoveries. OI’s
investigative activities resulted in $60 million placed into the United States’ treasury.


Page 34                                            October 1, 2010 – March 31, 2011          
 
                           TIGTA Semiannual Report to Congress 
 
Current Challenges
Physical violence, harassment, and intimidation of IRS employees pose some of the
most significant challenges to the implementation of a fair and effective system of
Federal tax administration. OI is committed to protecting approximately 100,000
employees and more than 700 facilities throughout the country. OI will continue to
place a priority on its oversight of IRS employee safety and physical security.

Threats have accounted for 40 percent of OI’s work during this reporting period. OI has
experienced an increase in threats and assaults directed towards IRS employees and/or
infrastructure. When a taxpayer threatens or assaults an IRS employee, TIGTA
responds and an investigation ensues. As part of the investigation, a TIGTA special
agent will contact the taxpayer and conduct a law-enforcement interview. Depending
upon the facts and outcome of the investigation, if needed, TIGTA will provide an armed
escort for the IRS employee when he or she meets with the taxpayer.

OI’s Armed Escort Program allows IRS employees to request that TIGTA’s special
agents escort them when they require personal contact with a potentially dangerous
taxpayer. Using armed escorts, TIGTA is able to provide a safe environment for the
IRS employee to conduct tax administration functions. Since October 1, 2010, TIGTA
has conducted 29 armed escorts.

OI adapts its oversight activities to address increasingly complex and high-risk issues
associated with IRS operations. This adaptation includes improvement of the detection
and investigation of electronic crimes. The migration of Federal tax administration’s
operations to the Internet and electronic environment has increased the risks of cyber
attacks, both internally and externally. Sophisticated attacks can now be launched from
anywhere in the world, with substantial, potential damage to the individual taxpayer and
the Nation’s critical financial infrastructure.

The IRS Modernization Program and the protection of confidential taxpayer information
from inadvertent or deliberate misuse, improper disclosure, or destruction represent a
continued risk to the IRS. Protection of taxpayers against privacy violations is of critical
importance, and OI will continue to dedicate its resources toward ensuring that the
unauthorized access (UNAX) of taxpayer information is detected, investigated, and
prevented.

Mitigation Strategies
OI has implemented several mitigation strategies to meet current challenges. OI has
forged new partnerships to strengthen its ability to deal with current and future threats
that are directed against the IRS and its employees. To further enhance the safety and
security of IRS personnel, OI has partnered with the following IRS Offices: the Office of
Physical Security and Emergency Preparedness (PSEP); the Office of Online Fraud
Detection and Prevention (OFDP); the Situational Awareness Management Center
(SAMC); the Office of Privacy; and the Computer Security Incident Response Center.


                            October 1, 2010 – March 31, 2011                          Page 35 
                                               
                                   TIGTA Semiannual Report to Congress 
 
As a result, the IRS Threat Information and Critical Response Initiative (TIRC) was
developed. The TIRC was created to allow for the effective review and dissemination of
threat information to IRS stakeholders in support of the critical employee safety mission.
The TIRC serves as a focal point for the timely and efficient sharing of threat
information, including cyber and Internet-based threats, to maximize the IRS’s ability to
engage in appropriate threat mitigation.

On October 1, 2010, OI established three new divisions that are aligned to apply
dedicated resources to critical areas of need. This reorganization forms the framework
upon which OI will base its threat and internal corruption strategy. The realignment
created the Electronic Crimes and Intelligence Division. The goal of this division is to
focus resources in the areas of advanced electronic criminal intelligence investigative
activities as well as to leverage OI’s existing resources to support the IRS TIRC.

The realignment also created a stand-alone Procurement Fraud Division (PFD). The
PFD’s mission is to protect the IRS against external attempts to corrupt Federal tax
administration involving IRS procurements. The PFD conducts comprehensive
investigations to uncover corruption within the Federal Government contracting
processes. Additionally, the PFD launched new collaborative efforts with the TIGTA’s
Office of Audit (OA) in furtherance of the FY 2011 strategic initiatives. These strategic
initiatives promote enhanced communications with TIGTA’s OA to help identify contract
fraud indicators. Strategies such as employing the use of advanced data analysis
techniques and fraud indicator training will augment the efforts of this strategic alliance
and maximize resources dedicated to protecting the interests of taxpayers.

Finally, the realignment created the Strategic Enforcement and Data Integrity Division.
This realignment combines the resources of the Investigation Development Group, the
Research Development and Operational Support Group, the Modernized UNAX
Development Group, and TIGTA’s Atlanta-based Data Center Warehouse. This newly
configured division will better leverage all of the agency’s data needs in support of both
current and future proactive initiatives.

Employee Integrity Investigations
       IRS employee misconduct (criminal and administrative) weakens the
       public’s trust in the Government and impedes effective Federal tax
       administration. The goal is to detect, investigate, and neutralize IRS
       employee criminal and administrative misconduct.


The following cases are examples of employee integrity investigations conducted during
this period:




Page 36                                            October 1, 2010 – March 31, 2011            
 
                                 TIGTA Semiannual Report to Congress 
 
Internal Revenue Service Revenue Officer Indicted for Stealing Approximately
$160,000 in Taxpayer Funds

By indictment filed on December 13, 2010, in New York, Fern Stephens, an IRS
revenue officer, was indicted on one count each of mail fraud, theft of public monies,
and fraud in connection with computers.22

As a revenue officer, Stephens was responsible for the collection of taxes from
individuals and corporations. As a condition of employment, Stephens was required to
sign an annual certification stating that she would not access tax records in IRS
databases except in connection with her official duties. From March 2003 through
November 2010, Stephens used her position to steal taxpayer funds held by the IRS by
devising a scheme involving the use of an IRS database. Stephens made false
computer entries that documented purported requests to transfer corporate or business
entity tax refunds or payments causing the IRS to issue checks, wires, and credits to
Stephens’s relatives and close associates. Stephens caused approximately 20
fraudulent credit transfers, from approximately 14 taxpayer victims, to be sent to eight of
her relatives or close associates.23

IRS Employee Indicted for Embezzlement and Theft

On October 5, 2010, in Ohio, Vonda Edmonds was indicted on one count of
embezzlement and theft. Beginning about September 27, 2005, and continuing
thereafter until on or about October 27, 2005, in the Southern District of Ohio, Edmonds,
an employee of the IRS, embezzled taxpayers’ payments to the IRS in various amounts
through 50 or more transactions over approximately one month until a loss in the
amount of $3,915.04 was realized. Edmonds converted the funds to which she was not
lawfully entitled, to her own use.24

Alice Rodriguez Charged with Unauthorized Access

On January 11, 2011, in California, IRS employee Alice Rodriguez was charged with the
unauthorized access to a computer. On or about April 21, 2010, Rodriguez, while an
IRS employee, accessed electronically stored Federal tax information on the IRS’s
electronic system without authorization, on 49 occasions 25

Vandetta Logan Pleads Guilty to Charges of Unauthorized Inspection of Tax
Return Information

On January 13, 2011, in Michigan, Vandetta Logan pleaded guilty to the unauthorized
inspection of tax return information. Logan worked as an individual taxpayer advisory
specialist for the IRS from April 16, 1986 through January 21, 2010. On December 17,

22
    S.D.N.Y. Indict. filed Dec. 13, 2010.
23
   Id.
24
   S.D. Ohio Indict. filed Oct. 5, 2010.
25
   E.D. Cal. Info. filed Jan. 11, 2011.

                                  October 1, 2010 – March 31, 2011                  Page 37 
                                                     
                                   TIGTA Semiannual Report to Congress 
 
2009, she inspected the Federal tax account of a taxpayer without authorization and
outside of her employment duties.26

Catherine Griffin Indicted for the Unauthorized Use of an Internal Revenue
Service Computer Network System

On February 22, 2011, in Georgia, Catherine Griffin was indicted for altering taxpayer
information. According to the indictment, Griffin, an IRS employee, intentionally and
knowingly accessed an IRS computer network system without authorization and altered
taxpayer information for the purposes of private financial gain. Griffin received
approximately $8,000 from other individuals for her acts.27

Employee and Infrastructure Security
       Tax revenue is critical to our Nation’s infrastructure. Threats and assaults
       to IRS employees, data, and facilities impede the Department of the
       Treasury from administering effective tax administration. The goal is to
       detect, investigate, and deter external attempts to threaten or attack tax
       administration.


The following cases are examples of employee and infrastructure security investigations
conducted during this period:

Nathaniel Ellison Indicted by Grand Jury

On December 15, 2010, in Alabama, Nathaniel Ellison was indicted on one count of
threatening to assault and murder Federal officials; one count of interstate transmission
of a communication threatening to injure IRS employees; and one count of an attempt to
interfere with the administration of Internal Revenue laws.28

On or about November 15, 2010, Ellison threatened over the telephone to injure IRS
employees. He threatened to assault, murder, and retaliate against IRS employees
while they were engaged in the performance of their official duties. Ellison also, by
threats of force, endeavored to intimidate an employee acting in an official capacity and
obstructed and impeded the due administration of the Internal Revenue laws.29




26
   E.D. Mich. Plea Agr. filed Jan. 13, 2011.
27
   N.D. Ga. Indict. filed Feb. 22, 2011.
28
   M.D. Ala. Indict. filed Dec. 15, 2010.
29
   Id.

Page 38                                            October 1, 2010 – March 31, 2011          
 
                                TIGTA Semiannual Report to Congress 
 
Michael Wayne Patterson Pleads Guilty to Making a False Threat of Hoax for
Mailing Envelopes Containing White Powder to the Internal Revenue Service and
Social Security Administration

On December 10, 2010, in Texas, Michael Wayne Patterson pleaded guilty to making a
false threat of hoax.30 According to an affidavit filed in support of the criminal complaint,
on or about August 14, 2010, an envelope containing a plastic ziplock baggie, filled with
an unknown white powder, was delivered to the IRS facility in Austin, Texas. After IRS
employees opened the envelope and discovered the white powder, the facility was
evacuated. The powder was later tested and was determined to be baking soda.31

On or about August 16, 2010, employees at the U.S. Postal Service Dallas Main Post
Office discovered an envelope, addressed to a Social Security Administration (SSA)
facility in Baltimore, Maryland, leaking white powder. Investigators opened the
envelope; inside was a small piece of foil containing a white powder. The powder was
tested and was also determined to be baking soda.32

TIGTA’s Forensic Science Laboratory (FSL) analyzed the handwriting on the envelopes
sent to the IRS and to the SSA. It was determined that the handwriting on the IRS and
SSA envelopes matched. The FSL also compared the handwriting on the two
envelopes to handwriting on two greeting cards Patterson sent to a former girlfriend.
The FSL concluded that the handwriting on the greeting cards matched the handwriting
on the envelopes sent to the IRS and the SSA. Fingerprints found on the greeting cards
were also matched to Patterson.33

Don Lawrence Asheim Indicted for False Information and Hoaxes

On October 19, 2010, in Illinois, Don Lawrence Asheim was indicted for False
Information and Hoaxes. According to the indictment, on April 30, 2010, Asheim placed
a white powdery substance in an envelope addressed to an individual at the IRS.
Enclosed in the envelope was Asheim’s tax bill which he had altered to remove and
obliterate his personally identifiable information in an attempt to conceal his identity.
Asheim also wrote various hostile and profane statements upon the tax bill.34

Albert Dermott Sentenced on Attempt to Intimidate and Impede by Threats of
Force an Employee of the United States

On February 11, 2011, in Virginia, Albert Dermott was sentenced on one count of
attempt to intimidate and impede by threats of force an employee of the United States.
Dermott was sentenced to 30 days in jail, five-years supervised release, and ordered to



30
   N.D. Tex. Plea Agr. filed Dec. 13, 2010.
31
   N.D. Tex. Compl. filed Aug. 26, 2010.
32
   Id.
33
   Id.
34
   C.D. Ill. Indict. filed Oct. 19, 2010.

                                October 1, 2010 – March 31, 2011                      Page 39 
                                                   
                                   TIGTA Semiannual Report to Congress 
 
pay a $25 assessment and adhere to special conditions set forth by the court regarding
his supervised release.35

On or about October 22, 2010, Dermott contacted an employee of the IRS by cell phone
to request a modification to his wage levy, which is automatically debited from his
wages to pay unpaid taxes. During his phone conversation with the IRS employee,
Dermott became frustrated when the IRS employee advised him that his request could
not be granted. Dermott asked where the IRS building was located. After he was given
the address, Dermott asked what kind of security the building had and if the building
faced the street. The IRS employee asked Dermott why he needed the information and
Dermott replied, “Hey, everybody has to do what they got to do.” The IRS employee
asked, “Why are you saying these things?” Dermott responded, “It doesn’t matter. At
this point, I’m finished. I can’t even pay my rent or my car.”36

Again on January 4, 2011, Dermott contacted another IRS employee by cell phone to
request that his monthly debits be reduced one time in the amount of $420 to permit him
to purchase a computer for his business. The IRS employee advised Dermott that the
requested reduction could not be made. Dermott then advised the employee that on the
previous day he had been advised by another IRS representative that such a reduction
could occur. When the IRS representative advised that she did not see a record of his
call on January 3, 2011, Dermott became argumentative and yelled at the IRS
employee, “Well, if I blow your building up, you won’t do that you [expletive] faced
[expletive].”37

Both IRS employees were acting in their official capacities during their communication
with Dermott. Dermott, by the threats of force described above, endeavored to
intimidate and impede them in the performance of their official duties.38

John Daly Indicted for Threatening to Assault Internal Revenue Service
Employees

On February 16, 2011, in Massachusetts, John K. Daly was indicted on two counts of
Threatening a Public Official, and two counts of Intimidating a United States Employee
Acting in an Official Capacity. According to the indictment, Daly threatened to assault
an employee of the IRS and endeavored to obstruct the Internal Revenue Code.39




35
   E.D. Va. J. Doc. filed Feb. 11, 2011.
36
   E.D. Va. Stat. of Fact filed Feb. 10, 2011.
37
   Id.
38
   Id.
39
   D. Mass. Indict. filed Feb. 16, 2011.

Page 40                                            October 1, 2010 – March 31, 2011        
 
                                TIGTA Semiannual Report to Congress 
 
External Attempts to Corrupt Tax Administration
      External attempts to corrupt tax administration inhibit the Department of the
      Treasury’s ability to collect revenue and also undermine the public’s
      confidence in fair and effective tax administration. The goal is to detect,
      investigate, and neutralize external attempts to corrupt tax administration.


The following cases are examples of external attempts to corrupt tax administration
investigations conducted during this period:

Belarusian National Pleads Guilty to Participation in International Online Tax
Refund Scheme

On January 19, 2011, in Massachusetts, Mikalai Mardakhayeu, a Belarusian national
and resident of Nantucket, Massachusetts, pleaded guilty to charges of conspiracy and
wire fraud for his participation in an international online scheme to steal income tax
refunds from United States taxpayers around the country.40 According to court records,
from 2006 through 2007, Mardakhayeu and his co-conspirators operated websites that
falsely represented to be authorized by the IRS to offer low-income taxpayers free
online tax return preparation and electronic tax return filing (e-filing).

After taxpayers uploaded their tax information, co-conspirators in Belarus collected the
data and altered the returns to direct the refunds to United States bank accounts
controlled by Mardakhayeu and, in some cases, to inflate the refund amounts. The co-
conspirators then caused the fraudulently altered returns to be e-filed with the IRS. The
co-conspirators ultimately caused the IRS and various State treasury departments to
deposit approximately $200,000 in stolen refunds into bank accounts controlled by
Mardakhayeu.41

Rene Coleman Pleads Guilty to Bribery of Internal Revenue Service Employee

On February 3, 2011, in Mississippi, Rene Coleman pleaded guilty to bribery of a public
official.42 On or about June 16, 2010, Coleman offered $1,000 to an IRS employee to
unlawfully reduce the tax liability Coleman owed to the IRS. Coleman had also been
indicted for corruptly giving $2,100 to an IRS employee with the intent to eliminate, by
half, Coleman’s tax obligations owed to the IRS on or about July 8, 2010.43




40
   D. Mass. Plea Agr. filed Jan. 19, 2011; D. Mass. Indict. filed June 23, 2010.

41
   D. Mass. Indict. filed June 23, 2010.

42
   S.D. Miss. Plea Agr. filed Feb. 3, 2011.

43
   S.D. Miss. Indict. filed Sept. 10, 2010. 


                                 October 1, 2010 – March 31, 2011                     Page 41 
                                                        
                                    TIGTA Semiannual Report to Congress 
 
David Eye Sentenced for Corrupt Interference With the Internal Revenue Code

On February 14, 2011, in West Virginia, David Eye was sentenced to five-years
probation and ordered to pay a $100 assessment after having pleaded guilty to Corrupt
Interference with the I.R.C.44

According to the previously filed indictment, from on or about March 16, 2007 to on or
about April 28, 2008, Eye corruptly endeavored to obstruct and impede the due
administration of the I.R.C. by, among other things:

     •	 On or about March 16, 2007, Eye caused a document entitled “NOTICE OF
        LIEN/COMMERCIAL SECURITY AGREEMENT ON FILE” to be filed when in fact
        Eye knew there was no such lien;
     •	 On or about May 14, 2007, Eye caused a letter regarding “NOTICE OF
        SETTLEMENT AND CLOSURE OF FEDERAL TAX LIEN” to be filed when in fact
        Eye knew there was no such settlement or closure;
     •	 On or about August 22, 2007, an agent acting for Eye appeared at a public
        auction for the right, title and interest of Eye’s certain real property and placed a
        winning bid of $75,000, leaving a $5,000 deposit and a balance of $70,000 to be
        paid by September 21, 2007; and
     •	 On or about September 14, 2007, Eye purported to pay the $70,000 balance with
        a document entitled “BONDED PROMISSORY NOTE,” when Eye knew the
        document had no legal monetary value.45

Stephanie Bare Indicted for the Misuse of the Department of the Treasury’s
Names and Symbols

On February 8, 2011, in Tennessee, Stephanie Bare was indicted on various charges
including the Misuse of the Department of the Treasury’s Names and Symbols.
According to the indictment, on about January 1, 2005 through on or about February 28,
2010, Bare knowingly devised a scheme to defraud and obtain money from victims.
The purpose of the scheme was to obtain money and property from individuals by
falsely claiming that Bare and another person had received a large inheritance which
was frozen by the IRS and by falsely claiming that the IRS would release the large
inheritance only upon the payment of tax liens.46

As part of the scheme, on about July 29, 2009, Bare used the title of an officer or
employee of the IRS and the abbreviations or initials of the IRS on documents and
electronic communications which were provided to victims in order to obtain money and
things of value.47




44
   N.D. W. Va. J. filed Feb. 14, 2011.
45
   N.D. W. Va. Indict. filed Feb. 18, 2009.
46
   E.D. Tenn. Indict. filed Feb. 8, 2011.
47
   Id.

Page 42	                                            October 1, 2010 – March 31, 2011             
 
                              TIGTA Semiannual Report to Congress 
 
Joseph Aluya Sentenced for Stealing Portions of Tax Refunds

On February 14, 2011, in California, Joseph Aluya was sentenced to 27 months in
prison to be followed by three years of supervised release. He was also ordered to pay
$380,705.39 in restitution and a $500 special assessment.48

According to the plea agreement, Aluya is a California Tax Education Council registered
tax preparer. From approximately 2003 through 2007, Aluya operated the businesses
Joseph Ayula Paradigm Financial and Paradigm Realty. Aluya devised a scheme to
defraud his clients by preparing two sets of Federal income tax returns for each client
and convincing the clients to allow him to electronically file their Federal tax return
Forms 1040. On the tax return provided to the client, Aluya usually inflated the amount
of tax owed which would make the refund amount lower than it should have been.
Aluya would then file a correct tax return with the IRS which showed a higher refund
amount. Aluya kept the difference for himself. Aluya’s clients were unaware of the
situation and believed the tax return they received from Aluya was the tax return filed
with the IRS.49

Aluya admits that he knowingly stole portions of his client’s tax refunds. From calendar
years 2003 to 2007, Aluya stole $321,492.39.50




48
   C.D. Cal. J. and Probation/Commitment Order filed Feb. 14, 2011.
49
   C.D. Cal. Plea Agr. filed June 1, 2010.
50
   Id.

                               October 1, 2010 – March 31, 2011                   Page 43 
                                                    
                                   TIGTA Semiannual Report to Congress 
 




Page 44                                            October 1, 2010 – March 31, 2011     
 
                          TIGTA Semiannual Report to Congress 
 

      Advancing Oversight of America’s Tax 

                   System 


T
     IGTA’s Office of Inspections and Evaluations (I&E) provides responsive, timely, 

       and cost-effective inspections and evaluations of challenging areas within the
       IRS, providing TIGTA with additional flexibility and capability to produce value-
       added products and services to improve tax administration. Its work is not a
substitute for audits and investigations; in fact, its findings may result in subsequent
audits and/or investigations.

The Office has two primary product lines: inspections and evaluations.

The purpose of inspections is to:

     •	   Provide factual and analytical information;
     •	   Monitor compliance;
     •	   Measure performance;
     •	   Assess the effectiveness and efficiency of programs and operations;
     •	   Share best practices; and
     •	   Inquire into allegations of waste, fraud, abuse, and mismanagement.

The purpose of evaluations is to:

     •	 Provide in-depth reviews of specific management issues, policies, or programs;
     •	 Address government-wide or multi-agency issues; and
     •	 Develop recommendations to streamline operations, enhance data quality, and
        minimize inefficient and ineffective procedures.

The following summaries highlight some of the significant activities I&E has engaged in
during this six-month reporting period:

Additional Oversight Could Improve the Occupational Safety and Health Program

This project was initiated to determine whether the IRS takes appropriate steps to
identify, correct, or reduce the impact of hazards in the workplace that could cause
individuals physical harm. TIGTA found that the IRS’s Occupational Safety and Health
program includes policies and guidelines, program evaluations, and systems designed
to report and document injuries and illnesses, and track hazards in the workplace. The
IRS also developed the Graphic Database Interface (GDI) system to document, track
and analyze safety-inspection results. As evidenced by the decline in the number of
accident and injury claims, the IRS has a proactive approach to minimize workplace
hazards.




                           October 1, 2010 – March 31, 2011	                      Page 45 
                                              
                                   TIGTA Semiannual Report to Congress 
 
The IRS’s Occupational Safety and Health program needs additional oversight in the
areas of data management and program enforcement. This includes enhancing the
capabilities of the GDI system and increasing oversight to ensure safety inspections are
completed timely and effectively. TIGTA found that the GDI system was not fully
operational and was not consistently used by IRS employees involved in the safety
review process. Additionally, there were no controls in place to ensure safety
inspections were completed effectively and timely. TIGTA’s inspections of a sample of
IRS facilities identified a number of safety hazards.
TIGTA recommended that the Chief, Agency-Wide Shared Services (AWSS) fully
implement the GDI system or employ a similar means to effectively collect and analyze
safety-inspection data. The Chief, AWSS, should also increase management oversight
to ensure safety inspections are completed timely and effectively.
In their response to the report, IRS officials stated the Chief, AWSS has begun to
enhance the data reporting capabilities of the GDI system and implement a plan to
improve its use. Furthermore, the Chief, AWSS will implement an action plan for
improving communication, oversight, and management of the safety inspection
program. Particularly, the safety and health staff will ensure safety inspections are
completed on time and entered into the GDI system.
Report Reference No. 2011-IE-R002




Page 46                                            October 1, 2010 – March 31, 2011         
 
                                 TIGTA Semiannual Report to Congress 
 

          American Recovery and Reinvestment 

                      Act of 2009 

The American Recovery and Reinvestment Act of 2009 (Recovery Act)51 was enacted
on February 17, 2009. The Recovery Act presents significant challenges to all Federal
agencies as they move to implement provisions quickly while attempting to minimize
risks and meet increased standards for transparency and accountability. With its 56 tax
provisions (20 related to individual taxpayers and 36 related to business taxpayers), the
Recovery Act poses significant challenges to the IRS as the Nation’s tax collection
agency and administrator of the tax laws. These provisions will continue to challenge
the IRS as it implements the required changes over multiple filing seasons.

TIGTA has issued numerous reports related to the IRS’s efforts to implement Recovery
Act tax provisions. For this six-month reporting period, TIGTA issued the following:

Overall, the Making Work Pay Credit Was Implemented As Intended by Congress,
but Resulted in Many Taxpayers Owing Taxes With Their Returns

The Making Work Pay Credit is advanced to taxpayers through their wages by a
decrease in Federal income tax withholding. This created the vulnerability that some
taxpayers had their taxes under-withheld at the end of 2009 or 2010. If taxpayers were
advanced more of the Making Work Pay Credit than they were entitled to, they may
have ultimately owed taxes when they filed their 2009 tax returns and may owe taxes
when they file their 2010 tax returns. These taxpayers may have been or could be
assessed the Estimated Tax Penalty.

TIGTA recommended that the IRS should:

      •	 Consider including simplified withholding adjustment instructions on the IRS
         website for specific scenarios that could result in underwithholding, in the case of
         future credits that are implemented by changes in the withholding tables; and
      •	 Identify those taxpayers that owed any Estimated Tax Penalty as a result of the
         Making Work Pay Credit and notify them of their right to have the portion of the
         Penalty related to the credit abated.

IRS management agreed with most of the recommendations and planned to continue
outreach efforts, but declined to contact taxpayers who owed any penalty based on the
Making Work Pay Credit. TIGTA was concerned that the IRS’s corrective actions were
not adequate.
Reference No. 2011-41-002




51
     Pub. L. No. 111-5, 123 Stat. 115.

                                  October 1, 2010 – March 31, 2011	                   Page 47 
                                                     
                                    TIGTA Semiannual Report to Congress 
 
Individuals Received Millions of Dollars in Erroneous Plug-in Electric and
Alternative Motor Vehicle Credits

The Recovery Act included a number of provisions that encouraged the purchase of
motor vehicles that operate on clean renewable sources of energy. Individuals claimed
more than $163.9 million in plug-in electric and alternative motor vehicle credits from
January 1, 2010 through July 24, 2010. Agencies are required to ensure that Recovery
Act funds are used for authorized purposes and appropriate measures are taken to
prevent waste, fraud, and abuse.

As of July 24, 2010, TIGTA identified 12,920 individuals who electronically filed their tax
returns and erroneously claimed $33 million in plug-in electric and alternative motor
vehicle credits. In addition, 1,719 of the 12,920 individuals erroneously reduced the
amount of Alternative Minimum Tax they owed by almost $5.3 million. During this
review, IRS management took corrective actions to reduce erroneous claims when
process weaknesses were brought to their attention. These actions resulted in an
estimated $3.1 million in protected revenue. The erroneous claims that TIGTA identified
resulted from inadequate IRS processes to ensure information reported by individuals
claiming plug-in electric and alternative motor vehicle credits met qualifying
requirements for vehicle year, placed in-service date, and make and model.

TIGTA recommended that the IRS:

    •	 Develop procedures to disallow credits for vehicles with nonqualifying years;
    •	 Initiate actions to recover erroneous credits that TIGTA identified; and
    •	 Either develop a coding system to identify vehicle makes and models or require
       the Vehicle Identification Number to be listed on the forms used to claim plug-in
       electric and alternative motor vehicle credits.

IRS management agreed with the recommendations and planned to take appropriate
corrective actions.
Reference No. 2011-41-011

Administration of the First-Time Homebuyer Credit Indicates a Need for Improved
Controls Over Refundable Credits

Homebuyers who purchased a home in 2008, 2009, or 2010 were able to take
advantage of the First-Time Homebuyer Credit (Homebuyer Credit). The Homebuyer
Credit allowed eligible taxpayers to claim up to an $8,000 refundable credit on their tax
return. Fraudulent and erroneous Homebuyer Credits totaling millions of dollars in
refunds were issued, revealing a need for not only stronger controls over claims for the
Homebuyer Credit, but also for strengthening controls over all refundable credits.

The IRS has taken positive steps to strengthen controls and help prevent inappropriate
Homebuyer Credits from being issued. Primary among these controls was the
implementation of filters to identify questionable claims for the Credit before they are


Page 48	                                            October 1, 2010 – March 31, 2011           
 
                               TIGTA Semiannual Report to Congress 
 
processed. Additionally, legislation granted the IRS math error52 authority to deny
Homebuyer Credits if proper documentation was not provided by the taxpayer.
However, the implementation of the filters and passage of this legislation occurred after
many Homebuyer Credits had already been issued, including fraudulent and erroneous
credits totaling millions of dollars.

Control weaknesses identified allowed potentially erroneous refunds of more than
$513 million to be received by taxpayers who most likely did not qualify for the
Homebuyer Credit. Furthermore, during the final phase of this audit, TIGTA
identified additional IRS employees who made questionable claims for the Credit.

As a result, TIGTA recommended that the IRS:

     •	 Require taxpayers to provide documentation to support eligibility for all
        refundable tax credits and seek legislation that would provide the IRS with math
        error authority to deny refundable credits when supporting documentation is not
        provided;
     •	 Ensure that the processing of refundable credits provided for in late legislation be
        initiated only after sufficient controls can be implemented to protect the
        Government from erroneous and fraudulent claims for these credits; and
     •	 Take additional steps to recover erroneous credits discussed in this report,
        including claims for: purchases from related persons; invalid addresses; a
        taxpayer’s previous address; and invalid acquisition dates.

IRS management partially agreed with one of the recommendations and agreed with
the others. However, TIGTA believed that the IRS needed to take a much more
timely and proactive approach to prevent fraudulent claims for refundable credits
than they agreed to take in their response.
Reference No. 2011-41-035

The IRS Accurately and Timely Accounted for American Recovery and
Reinvestment Act Fund Expenditures During the Period of February 17, 2009
through September 30, 2009

TIGTA conducted an inspection of the IRS’s compliance with implementing the
guidance53 issued by the Office of Management and Budget (OMB)54 for the Recovery
Act. This report presented the results of the inspection to verify the accuracy of the
IRS’s accounting and timeliness of reporting Recovery Act procurement expenditures.


52
   A program in which the IRS contacts taxpayers through the mail or by telephone when it identifies 

mathematical errors or mismatches of taxpayer information that would result in a tax change.

53
   M-09-10, Initial Implementing Guidance for the American Recovery and Reinvestment Act of 2009, 

February 18, 2009, and M-09-15, Updated Implementing Guidance for the American Recovery 

Reinvestment Act of 2009, April 3, 2009.

54
   OMB has the primary responsibility for 
developing government-wide rules and procedures to ensure
funds are awarded and distributed in a prompt and fair manner. Uses of funds are transparent to the
public; and steps are taken to mitigate waste, fraud, and abuse.

                               October 1, 2010 – March 31, 2011	                                 Page 49 
                                                     
                                   TIGTA Semiannual Report to Congress 
 
The IRS accurately and timely reported Recovery Act procurements and was in
substantial compliance with the OMB’s Implementing Guidance during the period of
February 17, 2009 through September 30, 2009. The IRS purchased goods and
services totaling almost $14 million55 during the inspection period. Further, the IRS
appropriately obtained nearly 82 percent of the total available discounts for Recovery
Act-related procurements. For Recovery Act expenditures, the IRS executed adequate
internal controls to ensure timely and accurate reporting. However, its controls and
processes were not formally documented. Earlier this year, TIGTA identified a lack of
written procedures regarding Recovery Act procurement requirements.56
To assist in ensuring proper documentation of Recovery Act expenditures, TIGTA
recommended that the IRS finalize the documentation of its Recovery Act procurement
processes. The IRS agreed with the recommendation and completed a Policy and
Procedures Memorandum which documents its Recovery Act procurement processes.57
Reference No. 2011-IE-R001




55
   The IRS received Recovery Act related invoices totaling $13,754,127.75 and paid $13,641.554.49; 

realizing $112,573.26 in discounts of the maximum available discounts of $137,541.28, for 81.8 percent.

56
   TIGTA, Ref. No. 2010-11-071, Additional Actions Are Needed to Ensure Readiness to Comply With the 

American Recovery and Reinvestment Act of 2009 Procurement Requirements 3 (June 2010). 

57
   Policy and Procedures Memorandum No. 70.26 entitled, “American Recovery and Reinvestment Act of 

2009” was approved on November 17, 2010.


Page 50                                            October 1, 2010 – March 31, 2011                     
 
                          TIGTA Semiannual Report to Congress 
 

     An Organization That Values Its People
TIGTA employees were honored at the 13th Annual Council of the Inspectors General
on Integrity and Efficiency’s (CIGIE) Awards Ceremony, held on October 12, 2010, at
the Andrew W. Mellon Auditorium. Several TIGTA employees received awards for their
excellent work and dedication or courage while performing duties for the Office of the
Inspector General.

TIGTA’s Office of Investigation (OI) Austin Group was honored with the Sentner Award,
accepted on their behalf by Special Agent Keith Feldman, for their dedication and
courage in identifying, interdicting, and mitigating potential threats directed at the IRS
and its employees. OI also won an Award for Excellence for the Tyler Bomb
Investigation, with the award being accepted by Special Agent Andy Farwell. OI’s
Edward Bosak was also honored for his work on the Information Technology Fees Case
– EMC Corporation Investigative Team joint investigation.

On December 7, 2010, Inspector General J. Russell George recognized the exemplary
achievements of TIGTA employees through the 2010 Inspector General Award
Program. Each recipient was recognized for his or her commitment to excellence in
public service on behalf of TIGTA. The recipients' accomplishments demonstrate high
mission impact, major contributions to customers and stakeholders, ingenuity and
innovation, and significant quantifiable results. There were five individual award
recipients and three group awards from the Office of Audit (I.R.C. § 6707A Penalty Audit
Team, First-Time Homebuyer Credit Audit Team, 2010 Filing Season Implementation
Team); one group award each from the Office of Inspections and Evaluations
(Pandemic Influenza Preparedness Inspection Team) and Office of Mission Support
(Security and Compliance – Cyber Security Team). The following are some highlights
and pictures taken during the ceremony.




                           October 1, 2010 – March 31, 2011                        Page 51 
                                              
                                   TIGTA Semiannual Report to Congress 
 
Daniel K. Carney, Special Agent, Office of Investigations

TIGTA’s primary mission is to protect the integrity of tax administration, and as a critical
piece of this mission, investigate all allegations of criminal misconduct by IRS
employees. Dan’s perseverance and extraordinary efforts in the investigation of stolen
money orders from June 2009 through December 2009, illustrated his commitment to
achieving this mission. Special Agent Daniel Carney is recognized with this honorary
award based on his excellent investigation which resulted in the sentencing,
imprisonment, and the order of restitution for the IRS employees indicted in this case.




Pictured above from left to right, Principal Deputy Inspector General Joseph Hungate, Deputy Inspector General for
Investigations Timothy Camus, Special Agent Daniel K. Carney, and Inspector General J. Russell George.

Keith D. Feldman, Special Agent, Office of Investigations

Special Agent Keith D. Feldman demonstrated outstanding investigative skills and
leadership while completing 50 investigations. Four of Agent Feldman’s investigations
were accepted for prosecution and 43 investigations resulted in administrative actions.




Pictured above from left to right, Principal Deputy Inspector General Joseph Hungate, Deputy Inspector General for
Investigations Timothy Camus, Special Agent Keith D. Feldman, and Inspector General J. Russell George.



Page 52                                            October 1, 2010 – March 31, 2011                                   
 
                                  TIGTA Semiannual Report to Congress 
 
Robert W. Lesnevich, Quality Assurance Manager, Beltsville Investigative Support
Center, Office of Investigations

Robert Lesnevich was TIGTA’s Lead Forensic Document Analyst when he was asked to
spearhead the efforts to get the lab accredited by the American Society of Crime
Laboratory Directors Laboratory Accreditation Board (ASCLD/LAB). Robert
immediately attended an accreditation course and became instrumental in obtaining
professional accreditation for the lab. There are many important reasons for a
laboratory to attain accreditation; one of which is that it stops a whole line of credibility
questioning of in-court testimony. Under Robert’s inspired leadership, laboratory staff
re-wrote large parts of the quality assurance and operations manuals to exactly reflect
their procedures. In conclusion, Robert almost single-handedly addressed issues and
encouraged staff to rise to the challenge and succeed. Since the Forensic Science
Laboratory is asked to assist with many other Federal Inspector General cases, the
accreditation indirectly benefits the entire Inspector General community.




Pictured above from left to right, Principal Deputy Inspector General Joseph Hungate, Deputy Inspector General for
Investigations Timothy Camus, Quality Assurance Manager Robert W. Lesnevich, and Inspector General J. Russell
George.

East Texas Pipe Bomb Task Force - Team members include:

Andy Farwell, Special Agent
Sam Johnson, Special Agent
Gary Smith, Special Agent
Paul Compton, Special Agent

TIGTA special agents demonstrated superior skills, dedication, and sacrifice while
conducting one of TIGTA’s most significant investigations during this nomination period.
This group’s hard work resulted in the arrest of an individual who was terrorizing the
East Texas area by leaving explosive devices in various locations near Tyler, Texas.
These explosive devices included Molotov cocktails and pipe bombs. This investigation
took on added significance as it came within a month of the attack on an IRS building in
Austin, Texas, that resulted in the loss of the life of one IRS employee. TIGTA’s special


                                   October 1, 2010 – March 31, 2011                                        Page 53 
                                                           
                                   TIGTA Semiannual Report to Congress 
 
agents developed leads throughout the community that eventually led to the identity of
the suspect and a subsequent arrest on April 7, 2010. Through their efforts, these
Special Agents demonstrated excellence in law enforcement and their professionalism
reflected highly on the Inspector General community.




Pictured above from left to right, Principal Deputy Inspector General Joseph Hungate, Deputy Inspector General for
Investigations Timothy Camus, Special Agent Gary Smith (accepting the IG Award on behalf of the team), and
Inspector General J. Russell George.




Page 54                                            October 1, 2010 – March 31, 2011                                   
 
                                    TIGTA Semiannual Report to Congress 
  
                               Audit Statistical Reports

                              Reports With Questioned Costs

 TIGTA issued one audit report with questioned costs during this semiannual reporting
 period.58 The phrase “questioned costs” means costs that are questioned because of:

       •	 An alleged violation of a provision of a law, regulation, contract, or other 

          requirement governing the expenditure of funds; 

       •	 A finding, at the time of the audit, that such cost is not supported by adequate
          documentation (an unsupported cost); or
       •	 A finding that expenditure of funds for the intended purpose is unnecessary or
          unreasonable.

 The phrase “disallowed cost” means a questioned cost that management, in a
 management decision, has sustained or agreed should not be charged to the
 Government.

                                        Reports With Questioned Costs
                                                                        Questioned      Unsupported
                Report Category                         Number            Costs59           Costs
                                                                      (in thousands)   (in thousands)
1. Reports with no management decision at
   the beginning of the reporting period                       5          $164,637           $82,147
2. Reports issued during the reporting period                  1             $187                 $0
3. Subtotals (Item 1 plus Item 2)                              6          $164,824           $82,147
4. Reports for which a management decision
   was made during the reporting period.
   a. Value of disallowed costs                                0                $0                $0
   b. Value of costs not disallowed                            0                $0                $0
5. Reports with no management decision
   at the end of the reporting period (Item 3
   minus Item 4)                                               6          $164,824           $82,147
6. Reports with no management decision
   within six months of issuance                               5          $164,637           $82,147




 58
      See Appendix II for identification of audit reports involved.
 59
      “Questioned costs” includes “unsupported costs.”

                                     October 1, 2010 – March 31, 2011	                         Page 55 
                                                            
                                     TIGTA Semiannual Report to Congress 
  
         Reports With Recommendations That Funds 

                    Be Put to Better Use 

 TIGTA issued two audit reports during this semiannual reporting period with the
 recommendation that funds be put to better use.60 The phrase “recommendation that
 funds be put to better use” means a recommendation that funds could be used more
 efficiently if management took actions to implement and complete the recommendation,
 including:

       •	 Reductions in outlays;
       •	 Deobligations of funds from programs or operations;
       •	 Costs not incurred by implementing recommended improvements related to
          operations;
       •	 Avoidance of unnecessary expenditures noted in pre-award reviews of contract
          agreements;
       •	 Prevention of erroneous payment of the following refundable credits: Earned
          Income Tax Credit and Additional Child Tax Credit; or
       •	 Any other savings that are specifically identified.

 The phrase “management decision” means the evaluation by management of the
 findings and recommendations included in an audit report, and the issuance of a final
 decision concerning its response to such findings and recommendations, including
 actions concluded to be necessary.

                    Reports With Recommendations That Funds Be Put to Better Use
                                                                                                     Amount
                             Report Category                                             Number
                                                                                                  (in thousands)
1. Reports with no management decision at the beginning of the
   reporting period                                                                        0                $0
2. Reports issued during the reporting period                                              2          $525,728
3. Subtotals (Item 1 plus Item 2)                                                          2          $525,728
4. Reports for which a management decision was made during the
   reporting period
      a. Value of recommendations to which management agreed
          i. Based on proposed management action                                           2          $400,726
         ii. Based on proposed legislative action                                          0                $0
   b. Value of recommendations to which management did not agree                           1          $125,002
5. Reports with no management decision at the end of the
   reporting period (Item 3 minus Item 4)                                                  0                $0
6. Reports with no management decision within six months of
   issuance                                                                                0                $0




 60
      See Appendix II for identification of audit reports involved.

 Page 56	                                            October 1, 2010 – March 31, 2011                               
  
                            TIGTA Semiannual Report to Congress 
 
            Reports With Additional Quantifiable 

               Impact on Tax Administration 

In addition to questioned costs and funds put to better use, OA has identified measures
that demonstrate the value of audit recommendations to tax administration and business
operations. These issues are of interest to IRS and Department of the Treasury
executives, Congress, and the taxpaying public, and are expressed in quantifiable terms
to provide further insight into the value and potential impact of OA’s products and
services. Including this information also promotes adherence to the intent and spirit of
the Government Performance and Results Act (GPRA).

Definitions of these additional measures are:
Increased Revenue: Assessment or collection of additional taxes.
Revenue Protection: Proper denial of claims for refunds, including recommendations
that prevent erroneous refunds or efforts to defraud the tax system.
Reduction of Burden on Taxpayers: Decreases by individuals or businesses in the
need for, frequency of, or time spent on contacts, record keeping, preparation, or costs
to comply with tax laws, regulations, and IRS policies and procedures.
Taxpayer Rights and Entitlements at Risk: The protection of due process (rights)
granted to taxpayers by law, regulation, or IRS policies and procedures. These rights
most commonly arise when filing tax returns, paying delinquent taxes, and examining
the accuracy of tax liabilities. The acceptance of claims for and issuance of refunds
(entitlements) are also included in this category, such as when taxpayers legitimately
assert that they overpaid their taxes.
Taxpayer Privacy and Security: Protection of taxpayer financial and account
information (privacy). Processes and programs that provide protection of tax
administration, account information, and organizational assets (security).
Inefficient Use of Resources: Value of efficiencies gained from recommendations to
reduce cost while maintaining or improving the effectiveness of specific programs and
resources saved would be available for other IRS programs. Also, the value of internal
control weaknesses that resulted in an unrecoverable expenditure of funds with no
tangible or useful benefit in return.
Reliability of Management Information: Ensuring the accuracy, validity, relevance,
and integrity of data, including the sources of data and the applications and
processing thereof, used by the organization to plan, monitor, and report on its
financial and operational activities. This measure will often be expressed as an
absolute value, i.e., without regard to whether a number is positive or negative, of
overstatements or understatements of amounts recorded on the organization’s
documents or systems.




                             October 1, 2010 – March 31, 2011                     Page 57 
                                                 
                                    TIGTA Semiannual Report to Congress 
 
Protection of Resources: Safeguarding human and capital assets, used by or in the
custody of the organization, from inadvertent or malicious injury, theft, destruction, loss,
misuse, overpayment, or degradation.

The number of taxpayer accounts and dollar values shown in the following chart
were derived from analyses of historical data, and are thus considered potential
barometers of the impact of audit recommendations. Actual results will vary
depending on the timing and extent of management’s implementation of the
corresponding corrective actions, and the number of accounts or subsequent
business activities affected as of the dates of implementation. Also, a report may
have issues that affect more than one outcome measure category.

         Reports With Additional Quantifiable Impact on Tax Administration
                                                     Number of
                                   Number of                          Dollar Value
     Outcome Measure Category                61      Taxpayer
                                    Reports                          (in thousands)
                                                      Accounts

Increased Revenue                                    4                       26,943     $106,865

Revenue Protection                                   2                       15,837      $44,060

Reduction of Burden on Taxpayers                     1                  11,148,277           $0
Taxpayer Rights and Entitlements
at Risk                                              5                   2,502,854      $239,876

Taxpayer Privacy and Security                        0                             0         $0

Inefficient Use of Resources                         0                             0         $0
Reliability of Management
Information                                          5                           40     $186,987

Protection of Resources                              1                             0       $220


Management did not agree with the outcome measures in the following reports:
      •	 Increased Revenue: Reference Numbers 2011-30-005 and 2011-30-013; and
      •	 Taxpayer Rights and Entitlements at Risk: Reference Numbers 2011-30-004
         and 2011-30-016.

The following reports contained quantifiable impacts other than the number of taxpayer
accounts and dollar value:
      •	 Reliability of Management Information: Reference Numbers 2011-40-009;
         2011-40-010; 2011-30-008; and 2011-10-015.




61
     See Appendix II for identification of audit reports involved.

Page 58	                                            October 1, 2010 – March 31, 2011                
 
                                     TIGTA Semiannual Report to Congress 
 
                    Investigations Statistical Reports 

                                Significant Investigative Achievements
                                     October 1, 2010 – March 31, 2011
Complaints/Allegations Received by TIGTA
     Complaints against IRS Employees                                                   2,126
     Complaints against Non-Employees                                                   2,189
     Total Complaints/Allegations                                                       4,315
Status of Complaints/Allegations Received by TIGTA
     Investigations Initiated                                                           1,425
                                62
     In Process within TIGTA                                                             352
     Referred to IRS for Action                                                          356
     Referred to IRS for Information Only                                                825
     Referred to a Non-IRS Entity63                                                          1
     Closed with No Referral                                                            1,051
     Closed with All Actions Completed                                                   305
     Total Complaints                                                                   4,315
Investigations Opened and Closed
     Total Investigations Opened                                                        1,822
    Total Investigations Closed64                                                       1,823
Financial Accomplishments
     Embezzlement/Theft Funds Recovered                                           $47,516,144
     Court Ordered Fines, Penalties and Restitution                               $12,195,368
     Out-of-Court Settlements                                                            0
     Total Financial Accomplishments                                                 $59,711,512


                                     Status of Closed Criminal Investigations
                                                                          Non-
                                                         Employee                            Total
      Criminal Referrals65                                                Employee
           Referred – Accepted for Prosecution               28              78                  106
           Referred – Declined for Prosecution              293             246                  539
           Referred – Pending Prosecutorial
           Decision                                          38              89                  127
      Total Criminal Referrals                              359             413                  772
      No Referral                                           464             587              1,051


62
   Complaints for which final determination had not been made at the end of the reporting period. 

63
   A non-IRS entity includes other law enforcement entities or Federal agencies.

64
   Closed investigations that are pending an administrative or criminal action.

65
   Criminal referrals include both Federal and State dispositions. 

Note: The IRS made 75 referrals to TIGTA that would more appropriately be handled by the IRS, and 

were therefore returned to the IRS. These are not included in the total complaints shown above.


                                      October 1, 2010 – March 31, 2011                                 Page 59 
                                                         
                                   TIGTA Semiannual Report to Congress 
 
                                          Criminal Dispositions66
                                                                                 Non-
                                                           Employee                             Total
                                                                                Employee
    Guilty                                                        14                   52         66
    Nolo Contendere (no contest)                                   1                   0            1
    Pre-trial Diversion                                            3                   3            6
                            67
    Deferred Prosecution                                           0                   1            1
    Not Guilty                                                     0                   1            1
                 68
    Dismissed                                                      4                   7          11
    Total Criminal Dispositions                                   22                   64         86


                      Administrative Dispositions on Closed TIGTA Investigations69
                                                                                                Total
    Removed, Terminated, or Other                                                                389
    Suspended/Reduction in Grade                                                                 101
    Oral or Written Reprimand/Admonishment                                                       107
    Closed – No Action Taken                                                                      64
    Clearance Letter Issued                                                                       52
    Employee Resigned Prior to Adjudication                                                       74
    Non-Internal Revenue Service Employee Actions70                                              410
    Total Administrative Dispositions                                                          1,197




66
   Final criminal dispositions during the reporting period. This data may pertain to investigations referred
criminally in prior reporting periods and do not necessarily relate to the investigations referred criminally in
the Status of Closed Criminal Investigations table above.
67
   Generally, in a deferred prosecution, the defendant accepts responsibility for his/her actions, and
complies with certain conditions imposed by the court. Upon the defendant’s completion of the
conditions, the court dismisses the case. If the defendant fails to fully comply, the court reinstates
prosecution of the charge.
68
   Court dismissed charges.
69
   Final administrative dispositions during the reporting period. This data may pertain to investigations
referred administratively in prior reporting periods and does not necessarily relate to the investigations
closed in the Investigations Opened and Closed table.
70
   Administrative actions taken by the IRS against non-IRS employees.

Page 60                                            October 1, 2010 – March 31, 2011                                 
 
                                    TIGTA Semiannual Report to Congress 
   
                                                Appendix I

                          Statistical Reports – Other 

                        Audit Reports With Significant 

                      Unimplemented Corrective Actions 

  The Inspector General Act of 1978 requires the identification of significant
  recommendations described in previous semiannual reports for which corrective actions
  have not been completed. The following list is based on information from the IRS Office of
  Management Control’s automated tracking system maintained by Department of the
  Treasury management officials.

                 IRS
              Management
                                                  Projected   Report Title and Recommendation Summary
               Challenge
Reference                                        Completion         (F = Finding Number (No.), R =
                 Area
 Number                              Issued         Date          Recommendation No., P = Plan No.)
2005-40-026   Providing Quality      February                 Processes Used to Ensure the Accuracy of Information
              Taxpayer Service        2005                    for Individual Taxpayers on IRS.GOV Need Improvement
                 Operations
                                                   10/01/11   F-1, R-2, P-2. Enhance the IRS’s content management
                                                              software application to provide the ability to identify specific
                                                              content accessed or revised by individual users.

2005-20-024   Security of the IRS   March 2005                The Disaster Recovery Program Has Improved, But It
                                                              Should Be Reported as a Material Weakness Due to
                                                              Limited Resources and Control Weaknesses

                                                   10/01/11   F-1, R-1, P-1, P-5. Report a disaster recovery program
                                                              material weakness to the Department of the Treasury as part
                                                              of the IRS’s Federal Managers’ Financial Integrity Act of 1982
                                                              annual evaluation of controls and include any new or
                                                              currently underway activities in the corrective action plan.

2005-10-129   Providing Quality     September                 Progress Has Been Made, but Further Improvements Are
              Taxpayer Service        2005                    Needed in the Administration of the Low-Income
                 Operations                                   Taxpayer Clinic Grant Program

                                                   01/15/12   F-1, R-1, P-2. Establish goals and performance measures for
                                                              the Low-Income Taxpayer Clinic program to assist Congress
                                                              and the IRS in evaluating the success of the program.

2007-10-082     Tax-Exempt          May 2007                  Screening Tax-Exempt Organizations Filing Information
                Organizations                                 Provides Minimal Assurance That Potential Terrorist-
                                                              Related Activities Are Identified

                                                   06/15/11   F-1, R-1, P-1. Develop and implement a long-term strategy
                                                              to automate the matching of Forms 1023 and 990 information
                                                              against a consolidated terrorist watch list to initially identify
                                                              potential terrorist activities related to tax-exempt
                                                              organizations.




                                    October 1, 2010 – March 31, 2011                                          Page 61 
                                                          
                                     TIGTA Semiannual Report to Congress 
   
                   IRS
                Management
                                                     Projected        Report Title and Recommendation Summary
                 Challenge
Reference                                           Completion              (F = Finding Number (No.), R =
                   Area
 Number                                Issued          Date               Recommendation No., P = Plan No.)
2008-40-087     Complexity of the    March 2008                      Individual Retirement Account Contributions and
                   Tax Law                                           Distributions Are Not Adequately Monitored to Ensure
                                                                     Tax Compliance

                                                       12/15/11      F-1, R-1, P-1. Analyze Forms 5498 to identify the causes of
                                                                     the errors and possible corrective actions.
                                                       05/15/11      F-3, R-2, P-1. Consider requiring custodians to report
                                                                     estimated required minimum distribution amounts on the
                                                                     Form 5498.

2008-40-167      Tax Compliance        August                        The Withholding Compliance Program Is Improving
                    Initiatives         2008                         Taxpayer Compliance; However, Additional Enforcement
                                                                     Actions Are Needed

                                                       12/15/13      F-2, R-1, P-1. Create a single data entry point for processing
                                                                     Withholding Compliance Program cases and, provide lock-in-
                                                                     letter issuance authority to other IRS functions.

2008-40-180      Tax Compliance      September                       Most Automated Underreporter Notices Are Correct;
                    Initiatives        2008                          However, Additional Oversight Is Needed

                                                       09/15/11      F-1, R-2, P-1. Simplify the Computer Paragraph 2000
                                                                     notices issued by the Automated Underreporter Program.

2009-40-024      Erroneous and        December                       The Earned Income Program Has Made Advances,
                    Improper            2008                         However, Alternatives To Traditional Compliance
                   Payments                                          Methods Are Needed to Stop Billions of Dollars in
                                                                     Erroneous Payments

                                                       12/15/11      F-1, R-1, P-1. Conduct a study to identify alternative
                                                                     processes that will expand the IRS’s ability to effectively and
                                                                     efficiently identify and adjust erroneous Earned Income Tax
                                                                     Credit (EITC) claims for which data show that the taxpayer
                                                                     does not meet the EITC requirements.

2009-10-041      Human Capital        February                       Workforce Planning Efforts Are Hindered by Lack of
                                       2009                          Comprehensive Information on Employee Skills Levels

                                                       04/15/11      F-1, R-2, P-4. Develop a detailed plan to guide the IRS’s
                                                                     overall skills gaps assessment effort and coordinate the
                                                                     multifunctional participation necessary to ensure the success
                                                                     of the effort.

2009-30-068         Taxpayer          May 2009                       Expanded Information Reporting Should Increase the
                   Compliance                                        Proper Reporting of Farm Income, But Additional Steps
                    Initiatives                                      Could Be Taken

                                                       03/15/11      F-2, R-1, P-1. Develop compliance strategies for ensuring
                                                                     more Commodity Credit Corporation income payments are
                                                                     properly reported.




  Page 62                                            October 1, 2010 – March 31, 2011                                         
   
                                   TIGTA Semiannual Report to Congress 
   
                 IRS
              Management
                                                Projected   Report Title and Recommendation Summary
               Challenge
Reference                                      Completion         (F = Finding Number (No.), R =
                 Area
 Number                             Issued        Date          Recommendation No., P = Plan No.)
2009-10-107       Improving        July 2009                Controls Over Real Property Management Have
              Performance and                               Improved; However, Additional Efforts Are Needed to
              Financial Data for                            Address Planned Staffing Increases
                Program and
              Budget Decisions                   06/15/13   F-1, R-2, P-1. Develop a comprehensive national policy
                                                            regarding workstation sharing for the flexiplace program and
                                                            the ratio of flexiplace employees to a shared workstation.
                                                 01/15/14   F-1, R-4, P-1. Develop procedures requiring that building
                                                            level projected space needs assessments include
                                                            consideration of the impact of workstation sharing, and be
                                                            periodically reconciled in total to agency-wide projected
                                                            staffing levels.

2009-40-112      Taxpayer           August                  Mortgage Interest Data Could Be Used to Pursue More
                Compliance           2009                   Nonfilers and Underreporters
                 Initiatives
                                                 12/15/11   F-1, R-1, P-1. Explore the feasibility of making greater use of
                                                            mortgage interest data to pursue additional nonfilers and
                                                            underreporters for audit.

2009-10-121       Improving        September                The Taxpayer Advocate Service Should Reevaluate the
              Performance and        2009                   Roles of Its Staff and Improve the Administration of the
              Financial Data for                            Taxpayer Advocacy Panel
                Program and
              Budget Decisions                   07/15/11   F-1, R-2, P-2, P-3. Reevaluate the structure and size to
                                                            ensure an appropriate balance between staff and budgetary
                                                            resources used to support the Panel.
                                                 11/15/11   F-2, R-1, P-1. Reevaluate the roles of the staff assigned to
                                                            assist the Panel and establish guidance to ensure that the
                                                            Panel functions independently.
                                                 06/15/11   F-4, R-1, P-2. Establish and follow formal guidance for
                                                            conducting tax compliance checks to include using the
                                                            Integrated Data Retrieval System (IDRS) as a tool for
                                                            accomplishing this.

2009-40-130      Processing        September                Repeated Efforts to Modernize Paper Tax Return
                 Returns and         2009                   Processing Have Been Unsuccessful; However, Actions
              Implementing Tax                              Can Be Taken to Increase Electronic Filing and Reduce
                Law Changes                                 Processing Costs
                During the Tax
                Filing Season                    09/15/11   F-1, R-2, P-1. Refocus the Modernized Submission
                                                            Processing Concept to include implementing a process to
                                                            convert paper filed tax returns prepared by individuals using a
                                                            tax preparation software package into an electronic format.




                                   October 1, 2010 – March 31, 2011                                       Page 63
 
                                                        
                                     TIGTA Semiannual Report to Congress 
   
                   IRS
                Management
                                                     Projected        Report Title and Recommendation Summary
                 Challenge
Reference                                           Completion              (F = Finding Number (No.), R =
                   Area
 Number                                Issued          Date               Recommendation No., P = Plan No.)
2009-40-138        Taxpayer          September                       Combat Zone Indicators on Taxpayer Accounts Are
                 Protection and        2009                          Frequently Inaccurate
                     Rights
                                                       01/15/12      F-2, R-1, P-1. Improve the process for identifying joint filers
                                                                     serving in the military to properly identify which individual(s)
                                                                     is/are in a combat zone to ensure appropriate enforcement
                                                                     actions are taken.
                                                       01/15/12      F-2, R-2, P-1. Improve the process for ensuring that Combat
                                                                     Zone indicators are reversed when an exit date is received
                                                                     from the Department of Defense (DOD) for those individuals
                                                                     who file a joint tax return but do not maintain the same order
                                                                     of primary and secondary taxpayer.
                                                       01/15/12      F-3, R-1, P-1. Discontinue providing the option to taxpayers
                                                                     of self-identifying by annotating a tax return with “Combat
                                                                     Zone” and continue to provide individuals with the option of
                                                                     self-identifying by telephone or electronically.
                                                       12/15/11      F-3, R-2, P-1. Take action to correct the inaccurate Combat
                                                                     Zone indicators that were incorrectly reactivated for 339,027
                                                                     taxpayers.
                                                       01/15/12      F-4, R-1, P-1. Develop a process to identify and resolve
                                                                     unpostable records when entry and exit date information
                                                                     provided by the DOD is unable to be posted to an individual’s
                                                                     tax account.
                                                       01/15/12      F-4, R-2, P-1. Take actions to resolve the 458 DOD Combat
                                                                     Zone transactions posted to invalid Social Security Numbers
                                                                     and revise the DOD validation process to ensure accurate
                                                                     posting of entry and exit date information.
                                                       12/15/11      F-5, R-1, P-1. Develop a process to validate Combat Zone
                                                                     service at the time an individual self-identifies.
                                                       01/15/12      F-5, R-2, P-1. Improve the process for individuals who self-
                                                                     identify their Combat Zone service by email with the
                                                                     establishment of a secure fillable form with the required data
                                                                     fields.

2010-40-005     Providing Quality     December                       Individual Taxpayer Identification Numbers Are Being
                Taxpayer Service        2009                         Issued Without Sufficient Supporting Documentation

                                                       08/15/12      F-3, R-1, P-1. Ensure the data on the Real-Time System are
                                                                     accurate and validate the records that indicate an agent
                                                                     submitted the application to ensure that the Individual
                                                                     Taxpayer Identification Number Program has accurate and
                                                                     reliable data to oversee the Program.
                                                       08/15/12      F-3, R-2, P-1. Develop procedures and internal controls to
                                                                     monitor the Real-Time System to ensure information entered
                                                                     is accurate.

2010-10-012         Taxpayer          December                       Additional Process Improvements Are Needed Due to
                   Compliance           2009                         Continued Growth in the Voluntary Correction Program
                    Initiatives                                      for Retirement Plans

                                                       09/30/11      F-1, R-1, P-2, P-3. Ensure the Voluntary Correction Program
                                                                     provides timely service to those in the retirement plan
                                                                     community who are attempting to bring their retirement plans
                                                                     into compliance with tax-exempt laws.




  Page 64                                            October 1, 2010 – March 31, 2011                                         
   
                                    TIGTA Semiannual Report to Congress 
   
                 IRS
              Management
                                                  Projected   Report Title and Recommendation Summary
               Challenge
Reference                                        Completion         (F = Finding Number (No.), R =
                 Area
 Number                              Issued         Date          Recommendation No., P = Plan No.)
2010-40-017    Erroneous and         January                  Insufficient and Inexperienced Staff Could Reduce the
                  Improper            2010                    Ability to Detect and Stop Fraudulent Refunds
                 Payments
                                                   11/15/11   F-1, R-1, P-1. Perform a comprehensive analysis during the
                                                              2010 Filing Season to determine the average time to
                                                              complete one unit of work for each of the transitioned
                                                              activities.

2010-30-023       Taxpayer          March 2010                Lien Determinations Were Untimely or Not Made
                 Compliance                                   Appropriately For Over $1.4 Billion in Delinquent Taxes
                  Initiatives
                                                   12/15/11   F-3, R-1, P-1. Consider assessing liens on those modules in
                                                              the queue with a balance due between $5,000 and $25,000
                                                              that meet the Study criteria before shelving.
2010-30-025       Taxpayer          March 2010                Employment Tax Compliance Could Be Improved With
                 Compliance                                   Better Coordination and Information Sharing
                  Initiatives
                                                   09/15/11   F-1, R-1, P-1. Create an audit code to flag paper returns that
                                                              have an incomplete Form 8919 attached.
                                                   01/15/12   F-1, R-4, P-1. Ensure that paper and electronically filed
                                                              returns with Forms 8919 attached are compared to filed
                                                              Forms SS-8 through a post-filing compliance program.
                                                              Ensure that paper returns flagged during processing are
                                                              reviewed and any noncompliance addressed.

2010-20-027       Taxpayer          March 2010                Additional Security Is Needed For Access to the
                Protection and                                Registered User Portal
                    Rights
                                                   06/15/11   F-1, R-1, P-1. Require suitability checks on delegated users
                                                              who e-file tax returns or access the e-Services incentive
                                                              products and disable the principal consent feature on e-
                                                              Services that allows a user to propagate his or her privileges
                                                              to other users.
                                                   05/15/11   F-1, R-2, P-1. Stop overturning the Fraud Detection Center’s
                                                              recommendations and revise the appeal procedures for e-file
                                                              applicants and other tax professionals who fail their suitability
                                                              check.
                                                   09/15/11   F-1, R-3, P-1. Enhance the e-file application on the Third-
                                                              Party Data Store to post the complete results of the
                                                              Automated Suitability Analysis Program’s spouse tax
                                                              compliance check.
                                                   09/15/11   F-1, R-5, P-1. Make passwords more difficult to guess by
                                                              unauthorized individuals and decrease the use of Social
                                                              Security Numbers as usernames.
                                                   09/15/11   F-1, R-6, P-1. Implement a control to allow users to answer a
                                                              series of challenge questions to unlock their accounts.

2010-20-028   Security of the IRS   March 2010                Additional Security Controls Are Needed to Protect the
                                                              Automated Collection System

                                                   12/01/11   F-1, R-3, P-1. Make the identity access provisioning and
                                                              management solution a top priority.




                                    October 1, 2010 – March 31, 2011                                         Page 65
 
                                                          
                                     TIGTA Semiannual Report to Congress 
   
                   IRS
                Management
                                                     Projected        Report Title and Recommendation Summary
                 Challenge
Reference                                           Completion              (F = Finding Number (No.), R =
                   Area
 Number                                Issued          Date               Recommendation No., P = Plan No.)
2010-30-032         Taxpayer         March 2010                      Collection Alternatives Were Available to Economically
                   Compliance                                        Distressed Taxpayers, but Some New Processes Need
                    Initiatives                                      Improvement

                                                       09/15/12      F-1, R-1, P-1, P-2. Submit a request to revise the computer
                                                                     programming to allow taxpayers only one additional
                                                                     automatic skip per 12-month period and include only
                                                                     individual taxpayers in the processing routine.

2010-40-042        Taxpayer          March 2010                      The Screening and Monitoring of E-File Providers Has
                 Protection and                                      Improved, but More Work Is Needed to Ensure the
                     Rights                                          Integrity of the E-File Program

                                                       09/15/11      F-2, R-1, P-2. Implement controls to ensure that the
                                                                     monitoring visit procedures are being followed.
                                                       09/15/11      F-2, R-2, P-2. Ensure information reported is accurate and
                                                                     the results of the monitoring visits are used to improve and
                                                                     measure the effectiveness of the e-File Program.

2010-40-043         Taxpayer         March 2010                      A Service-wide Strategy Is Needed to Address Growing
                   Compliance                                        Noncompliance With Individual Retirement Account
                    Initiatives                                      Contribution and Distribution Requirements

                                                       10/15/12      F-1, R-1, P-1. Ensure a service-wide strategy is developed to
                                                                     address retirement provision noncompliance.

2010-40-045    Security of the IRS   March 2010                      Telephone Authentication Practices Need Improvement
                                                                     to Better Prevent Unauthorized Disclosures

                                                       09/15/11      F-3, R-1, P-1. Incorporate available technology to
                                                                     authenticate callers in the queue as part of the development
                                                                     of the Authentication Retention Project.




  Page 66                                            October 1, 2010 – March 31, 2011                                        
   
                                    TIGTA Semiannual Report to Congress 
   
                 IRS
              Management
                                                Projected   Report Title and Recommendation Summary
               Challenge
Reference                                      Completion         (F = Finding Number (No.), R =
                 Area
 Number                              Issued       Date          Recommendation No., P = Plan No.)
2010-20-044    Modernization of     May 2010                Implementing Best Practices and Additional Controls
                  the IRS                                   Can Improve Data Center Energy Efficiency and the
                                                            Environmental and Energy Program

                                                 07/15/11   F-1, R-1, P-1. Ensure that policies and procedures are
                                                            established to evaluate and determine which best practices to
                                                            implement to improve data center energy efficiency.
                                                 11/15/11   F-1, R-2, P-1. Ensure information technology equipment
                                                            energy use is measured in order to determine the energy
                                                            efficiency and savings from implementing energy
                                                            improvements.
                                                 07/15/11   F-1, R-3, P-1. Ensure employee workstations and
                                                            information technology equipment and non-information
                                                            technology equipment and furniture that are no longer
                                                            needed are removed from the data centers.
                                                 03/01/12   F-1, R-4, P-1. Ensure current and future data center space
                                                            needs are identified and plans developed to consolidate or
                                                            reduce excess data center space.
                                                 11/15/14   F-1, R-5, P-1. Ensure energy audits are performed at the
                                                            data centers.
                                                 04/15/11   F-2, R-1, P-1. Ensure that a governance process is
                                                            established to evaluate, select, and approve
                                                            recommendations and projects to implement.
                                                 04/15/11   F-2, R-2, P-1. Ensure that a database of all
                                                            recommendations and projects to improve energy efficiency
                                                            and the environment is established.

2010-20-051   Security of the IRS   May 2010                Taxpayer Data Used at Contractor Facilities May Be at
                                                            Risk for Unauthorized Access or Disclosure

                                                 09/30/11   F-2, R-1, P-1. Validate correction of the Cybersecurity
                                                            Infrastructure Security and Reviews office reported security
                                                            weaknesses and recommend a process for reporting
                                                            weaknesses that remain unmitigated to increase the
                                                            accountability of the responsible parties for remediation of
                                                            security weaknesses.

2010-10-054    Human Capital        May 2010                Additional Actions Are Needed to Measure and Evaluate
                                                            the Impact of the Pay-For-Performance System on
                                                            Recruiting, Retaining, and Motivating Highly Skilled
                                                            Leaders

                                                 04/15/11   F-2, R-2, P-1, P-2. Define a process where Pay-for-
                                                            Performance system issues are assessed at least annually.




                                    October 1, 2010 – March 31, 2011                                     Page 67
 
                                                        
                                     TIGTA Semiannual Report to Congress 
   
                   IRS
                Management
                                                     Projected        Report Title and Recommendation Summary
                 Challenge
Reference                                           Completion              (F = Finding Number (No.), R =
                   Area
 Number                                Issued          Date               Recommendation No., P = Plan No.)
2010-20-056     Modernization of      June 2010                      Additional Efforts Are Needed to Implement the
                   the IRS                                           Electronics Stewardship Program and Maximize the
                                                                     Energy Efficiency of Desktop Computer Equipment

                                                       06/01/11      F-1, R-2, P-1, P-2. Develop an implementation strategy and
                                                                     plan to ensure the applicable energy-efficient practices such
                                                                     as power management for desktop computers and duplex
                                                                     printing outlined in the Electronics Stewardship Program and
                                                                     Implementation Plan are implemented, as soon as possible,
                                                                     to the maximum degree based on the IRS’s mission needs.
                                                       10/15/11      F-2, R-1, P-1. Implement an effective process to timely
                                                                     review training records and ensure employees complete
                                                                     required annual training by the June 30 due date.
                                                       12/15/11      F-2, R-2, P-1. Develop a tracking system to support the
                                                                     ongoing review of the IRS’s efforts in acquiring electronic
                                                                     products of which at least 95 percent are Electronic Product
                                                                     Environmental Assessment Tool-registered.

2010-30-061         Taxpayer          June 2010                      Plans Exist to Engage the Tax Preparer Community in
                   Compliance                                        Reducing the Tax Gap; However, Enhancements Are
                    Initiatives                                      Needed

                                                       01/15/14      F-1, R-1, P-1. Update the existing IRS Strategic Plan and
                                                                     ensure strategic plans have all of the information in the plans
                                                                     as required by the Government Performance and Results Act
                                                                     of 1993 and Office of Management and Budget Circular A-11
                                                                     (Preparation, Submission, and Execution of the Budget).
                                                       01/15/14      F-2, R-1, P-1. Define and include in the IRS Strategic Plan
                                                                     sufficient measures that will provide data that can be used to
                                                                     monitor the IRS’s efforts to achieve objectives aimed at
                                                                     strengthening partnerships with tax practitioners and paid
                                                                     preparers to ensure effective tax administration.

2010-41-069       Implementing        June 2010                      Additional Steps Are Needed to Prevent and Recover
                 Health Care and                                     Erroneous Claims for the First-Time Homebuyer Credit
                 Other Tax Law
                    Changes                            09/15/11      F-1, R-1, P-1. Ensure that steps are taken to reconcile
                                                                     prisoner files from year-to-year to account for individuals
                                                                     known to be incarcerated in a given year but not included on
                                                                     the current year’s prisoner file.
                                                       09/15/11      F-1, R-2, P-1. Ensure that steps are taken to recover
                                                                     fraudulent Homebuyer Credits refunded to prisoners.
                                                       09/15/11      F-2, R-1, P-1. Perform a computer run similar to TIGTA’s to
                                                                     identify multiple taxpayers claiming the same home for the
                                                                     Homebuyer Credit and perform post-refund examinations to
                                                                     ensure refunds for the invalid claims are recovered.
                                                       09/15/11      F-3, R-1, P-1. Identify those claims for homes purchased
                                                                     prior to the effective date of the legislation and initiate post-
                                                                     refund examinations to ensure refunds for the invalid claims
                                                                     are recovered.




  Page 68                                            October 1, 2010 – March 31, 2011                                           
   
                                    TIGTA Semiannual Report to Congress 
   
                 IRS
              Management
                                                 Projected   Report Title and Recommendation Summary
               Challenge
Reference                                       Completion         (F = Finding Number (No.), R =
                 Area
 Number                              Issued        Date          Recommendation No., P = Plan No.)
2010-40-062    Erroneous and        July 2010                Better Use of Available Third-Party Data Could Identify
                  Improper                                   and Prevent More Than One Billion Dollars in Potentially
                 Payments                                    Erroneous Refunds

                                                  01/15/12   F-1, R-3, P-1. Work with the Department of the Treasury,
                                                             Office of Tax Policy, to obtain limited math error authority so
                                                             that the IRS can freeze refunds while contacting taxpayers
                                                             with a questionable age for certain filing statuses, taxpayers
                                                             shown as deceased based on Social Security Administration
                                                             information, and taxpayers with questionable EITC claims
                                                             based on age difference.

2010-20-084   Security of the IRS    August                  More Actions Are Needed to Correct the Security Roles
                                      2010                   and Responsibilities Portion of the Computer Security
                                                             Material Weakness

                                                  09/30/11   F-1, R-1, P-1. Update the Internal Revenue Manual (IRM) to
                                                             include all information technology security roles in existence
                                                             at the IRS and the related responsibilities for each of these
                                                             roles; establish recurring processes and communications to
                                                             ensure security roles and responsibilities in the IRM are
                                                             periodically reviewed and updated and alignment between
                                                             the IRM and the training curriculum is maintained; and
                                                             establish a process to periodically collect, update, and review
                                                             security role-related procedures and guidelines to ensure
                                                             day-to-day procedures align with current IRS policy.
                                                  02/01/12   F-2, R-1, P-1. Develop an effective and repeatable method
                                                             to identify all IRS and contract employees performing in
                                                             established information technology security roles; include all
                                                             IRS and contract employees performing in information
                                                             technology security roles in the population for potential
                                                             selection in the compliance assessments; and develop
                                                             adequate procedures to validate compliance with current
                                                             security role-related responsibilities through compliance
                                                             assessments that incorporate supporting evidence of proper
                                                             execution of assigned responsibilities.
                                                  09/30/11   F-3, R-1, P-1. Ensure adequate and accurate metrics are
                                                             established that assess progress and can be analyzed to
                                                             develop actions to further improve implementation of security
                                                             roles and responsibilities policy.

2010-41-086     Implementing         August                  A Comprehensive Strategy Is Being Developed to
               Health Care and        2010                   Identify Individuals With First-Time Homebuyer Credit
               Other Tax Law                                 Repayment Requirements
                  Changes
                                                  09/15/11   F-1, R-1, P-1. Correct the purchase dates for the 68,924
                                                             accounts that were identified as having incorrect purchased
                                                             dates recorded.
                                                  09/15/11   F-2, R-1, P-1. Ensure that the 798 individuals who were
                                                             identified as being deceased prior to the purchase of the
                                                             home are entitled to claim the Homebuyer Credit.




                                    October 1, 2010 – March 31, 2011                                       Page 69
 
                                                         
                                     TIGTA Semiannual Report to Congress 
   
                   IRS
                Management
                                                     Projected        Report Title and Recommendation Summary
                 Challenge
Reference                                           Completion              (F = Finding Number (No.), R =
                   Area
 Number                                Issued          Date               Recommendation No., P = Plan No.)
2010-40-091       Globalization        August                        Improvements Are Needed to Reduce Erroneous Foreign
                                        2010                         Earned Income Exclusion Claims

                                                       01/15/12      F-1, R-4, P-1. Include programming to forward tax returns to
                                                                     the Error Resolution System for correction if the individual
                                                                     incorrectly computes the foreign earned income.

2010-30-095         Taxpayer           August                        The Collection Field Function Did Not Take All
                   Compliance           2010                         Appropriate Collection Actions Prior to Closing In-
                    Initiatives                                      Business Taxpayer Accounts as Currently Not
                                                                     Collectible

                                                       10/15/11      F-1, R-1, P-2. Ensure training is provided with additional
                                                                     emphasis on the importance of securing, verifying, and
                                                                     analyzing financial information.
                                                    P-1: 02/15/12    F-1, R-2, P-1, P-2. Ensure the Integrated Collection System
                                                    P-2: 04/15/11    and IRM are updated to include verification of income and
                                                                     expense requirements.

2010-30-104         Taxpayer         September                       Currency Report Data Can Be a Good Source for Audit
                   Compliance          2010                          Leads
                    Initiatives
                                                       06/15/13      F-1, R-1, P-1. Explore the feasibility of making greater use of
                                                                     Currency Transaction Reports to pursue additional nonfilers
                                                                     and underreporters for audit.

2010-40-108     Providing Quality    September                       Toll-Free Telephone Access Exceeded Expectations, But
                Taxpayer Service       2010                          Access for Hearing- and Speech-Impaired Taxpayers
                                                                     Could Be Improved

                                                       01/15/13      F-1, R-1, P-1. Revise the various taxpayer instructions,
                                                                     including notices, for calling the IRS to clearly explain that the
                                                                     Tele-Typewriter/Telecommunications Device (TTY/TDD)
                                                                     number is for hearing- and speech-impaired individuals.
                                                       01/15/12      F-1, R-2, P-1. Revise the various taxpayer publications and
                                                                     IRS pages to include the Federal Relay Service website and
                                                                     toll-free telephone number as a means to communicate with
                                                                     the IRS.
                                                       01/15/12      F-1, R-3, P-1. Determine whether it would be more efficient
                                                                     to move the Atlanta, Georgia, workstation to Dallas, Texas, or
                                                                     Indianapolis, Indiana, where the majority of the TTY/TDD
                                                                     calls are received and have the two sites serve as each
                                                                     other’s backup.

2010-40-109     Providing Quality    September                       Improvements to the Volunteer Program Are Producing
                Taxpayer Service       2010                          Positive Results, But Further Improvements Are Needed
                                                                     to the Quality Assurance Process

                                                       06/15/11      F-2, R-1, P-1. Develop an initiative to help reduce or
                                                                     eliminate paper products at Volunteer Program sites.




  Page 70                                            October 1, 2010 – March 31, 2011                                           
   
                                TIGTA Semiannual Report to Congress 
   
                 IRS
              Management
                                             Projected     Report Title and Recommendation Summary
               Challenge
Reference                                   Completion           (F = Finding Number (No.), R =
                 Area
 Number                          Issued        Date            Recommendation No., P = Plan No.)
2010-40-121      Taxpayer       September                  Improvements Are Needed to Verify Refunds to
                Compliance        2010                     Nonresident Aliens Before the Refunds Are Sent Out of
                 Initiatives                               the United States

                                              04/15/11     F-1, R-1, P-1. Ensure that plans developed during the course
                                                           of the audit to address the control weaknesses discussed in
                                                           the report are implemented.
                                              07/15/11     F-1, R-3, P-1. Determine whether it would be feasible to
                                                           require payers issuing multiple Forms 1042-S to issue a
                                                           single summary Form 1042-S at the end of the calendar year
                                                           to simplify reporting for the United States business and third-
                                                           party payer and decrease taxpayer burden.
                                              04/15/11     F-2, R-1, P-1. Use the Foreign Country Codes on Form
                                                           1040NR to ensure that the correct tax rate has been applied
                                              01/15/12     F-3, R-2, P-1. Clarify instructions on what constitutes United
                                                           States source income in United States Tax Guide for Aliens
                                                           (Publication 519) and Withholding of Tax on Nonresident
                                                           Aliens and Foreign Entities (Publication 515) in regard to
                                                           income from multi-level marketing companies.

2010-40-127      Taxpayer       September                  It Will Take Years to Implement the Return Preparer
                Compliance        2010                     Program and to Realize Its Impact
                 Initiatives
                                              09/15/11     F-1, R-1, P-1. Provide sufficient resources to verify
                                                           professional credentials for all attorneys and Certified Public
                                                           Accountants applying for a Preparer Tax Identification
                                                           Number (PTIN).
                                            P1: 09/15/11   F-1, R-2, P-1, P-2. Establish controls to ensure PTIN
                                            P2: 09/15/12   applicants with domestic addresses are United States
                                                           citizens or legal aliens, and the Social Security Number of the
                                                           PTIN applicant is not the Social Security Number of a
                                                           deceased person.
                                              09/15/12     F-1, R-3, P-1. Complete the study comparing the four
                                                           preparer programs to gain an understanding of the basis for
                                                           the requirements and if they should apply to each program; to
                                                           ensure consistencies in the requirements and suitability
                                                           testing among the program; and to identify any overlaps,
                                                           including user fees, among the programs.
2010-41-128    Implementing     September                  Verifying Eligibility for Certain New Tax Benefits Was a
              Health Care and     2010                     Challenge for the 2010 Filing Season
              Other Tax Law
                 Changes                      07/15/11     F-5, R-1, P-1. Ensure programming is implemented to
                                                           identify and freeze refunds of individuals claiming more than
                                                           a specific dollar amount in Qualified Motor Vehicle Tax
                                                           deductions on Schedule A.




                                October 1, 2010 – March 31, 2011                                        Page 71
 
                                                     
                                   TIGTA Semiannual Report to Congress 
 




Page 72                                            October 1, 2010 – March 31, 2011     
 
                                TIGTA Semiannual Report to Congress 
 
                           Other Statistical Reports 

                 The Inspector General Act of 1978 requires Inspectors General
                                    to address the following issues:

                            Issue                                        Result for TIGTA

    Access to Information
    Report unreasonable refusals of information            As of March 31, 2011, there were no
    available to the agency that relate to programs and    instances where information or assistance
    operations for which the Inspector General has         requested by the Office of Audit was refused.
    responsibilities.

    Disputed Audit Recommendations
                                                           As of March 31, 2011, there were no instances
    Provide information on significant management          where significant recommendations were
    decisions in response to audit recommendations with    disputed.
    which the Inspector General disagrees.

    Revised Management Decisions
    Provide a description and explanation of the           As of March 31, 2011, no significant
    reasons for any significant revised management         management decisions were revised.
    decisions made during the reporting period.

    Audit Reports Issued in the Prior Reporting
    Period With No Management Response
                                                           As of March 31, 2011, there were no prior
    Provide a summary of each audit report issued          reports where management’s response was
    before the beginning of the current reporting period   not received.
    for which no management response has been
    received by the end of the current reporting period.

    Review of Legislation and Regulations
                                                           TIGTA’s Office of Chief Counsel reviewed
    Review existing and proposed legislation and           135 proposed regulations and legislative
    regulations, and make recommendations concerning       requests during this reporting period.
    the impact of such legislation or regulations.




                                 October 1, 2010 – March 31, 2011                                 Page 73 
                                                       
                                   TIGTA Semiannual Report to Congress 
 




Page 74                                            October 1, 2010 – March 31, 2011     
 
                               TIGTA Semiannual Report to Congress 
 
                                         Appendix II

                           Audit Products 

                   October 1, 2010 – March 31, 2011 

                                             Audit Products
    Reference
    Number                                                 Report Title
                  October 2010
                  N/A
                  November 2010
                  Overall the Making Work Pay Credit Was Implemented As Intended by the Congress, but
                  Resulted in Many Taxpayers Owing Taxes With Their Returns (Taxpayer Rights and
    2011-41-002
                  Entitlements: $24,143,843 and 2,269,158 taxpayers impacted; Taxpayer Burden: 11,148,277
                  taxpayers)

                  Treasury Inspector General for Tax Administration – Federal Information Security Management
    2011-20-003
                  Act Report for Fiscal Year 2010

                  Prototype Process Improvements Will Benefit Efforts to Modernize Taxpayer Account
    2011-20-001
                  Administration

                  December 2010
                  Penalty Cases for Failure to Disclose Reportable Transactions Were Not Always Fully
    2011-30-004
                  Developed (Taxpayer Rights and Entitlements: 19 taxpayers impacted)

                  Actions Are Needed in the Identification, Selection, and Examination of Individual Tax Returns
    2011-30-005
                  With Rental Real Estate Activity (Increased Revenue: $27,274,412)

                  Significant Problems Still Exist With Internal Revenue Service Efforts to Identify Prisoner Tax
    2011-40-009   Refund Fraud (Reliability of Information: 360,540 prisoner records with missing or inaccurate
                  information)

                  The Sustaining Infrastructure Program Is Significantly Improved and a Comprehensive
    2011-20-006   Information Technology Infrastructure Strategy Has Been Developed (Funds Put to Better Use:
                  $12,395,037; Increased Revenue: $16,430,630)

                  Multiple Channels Are Used to Provide Information to Small Business Taxpayers, but More
    2011-40-010   Information Is Needed to Understand Their Needs (Reliability of Information: 52 records missing
                  from the Outreach Initiatives Database)

                  January 2011
                  Weaknesses Continue to Exist in the Controls Over Investigative Equipment (Protection of
    2011-30-008   Resources: $219,699; Reliability of Information: 20,795; investigative equipment items not
                  properly controlled in the Criminal Investigation Management Information System)


                  Individuals Received Millions of Dollars in Erroneous Plug-in Electric and Alternative Motor
    2011-41-011
                  Vehicle Credits (Revenue Protection: $43,528,926 and 15,741 taxpayers impacted)

                  The Income Verification Express Services Program Needs Improvements to Better Protect Tax
    2011-40-014
                  Return Information

                  Attestation Review of the Internal Revenue Service’s Fiscal Year 2010 Annual Accounting of
    2011-10-021
                  Drug Control Funds and Related Performance


                               October 1, 2010 – March 31, 2011                                           Page 75 
                                                        
                                   TIGTA Semiannual Report to Congress 
 
                       February 2011
    2011-20-012       Additional Security Is Needed for the Taxpayer Secure Email Program

                      Existing Practices Allowed IRS Contractors to Receive Payments While Owing Delinquent
    2011-30-013
                      Taxes (Increased Revenue: $3,766,609)

                      Reduction Targets and Strategies Have Not Been Established to Reduce the Billions of Dollars
    2011-40-023
                      in Improper Earned Income Tax Credit Payments Each Year

                      The Taxpayer Assistance Centers Are Not Located to Effectively Serve the Maximum Number of
    2011-40-022
                      Taxpayers

                      Targeted Compliance Efforts May Reduce the Number of Inaccurate Information Returns
    2011-30-019       Submitted by Government Entities (Increased Revenue: $59,393,655 and 26,943 taxpayers
                      impacted)

                      The Applications Development Function’s Quality Assurance Program Office Can Make Its
    2011-20-007
                      Processes More Effective

                      Progress Has Been Made to Reengineer the Examination Program, but Additional
    2011-30-016       Improvements Are Needed to Reduce Taxpayer Burden (Taxpayer Rights and Entitlements:
                      209,879 taxpayers impacted)

                      Cost Impact of Noncompliance With Cost Accounting Standard 410, Allocation of Business Unit
    2011-1C-017
                      General and Administrative Expenses to Final Cost Objectives (Questioned Costs: $187,283)

    2011-1C-018       Noncompliance With Cost Accounting Standard 409, Depreciation of Tangible Capital Assets

    2011-40-025       Publishing and Mail Costs Need to Be More Effectively Managed to Reduce Future Costs

                       March 2011
                      Taxpayer Payments Were Improperly Transferred to the Excess Collection File (Taxpayer
    2011-30-020       Rights and Entitlements: $204,013,345; Reliability of Information: $186,987,048 in credits
                      transferred without managerial approval and 40 taxpayers impacted)
                      The Impact of the Frontline Leader Readiness Program on Succession Planning Should Be
    2011-10-015       Determined (Reliability of Information: seven incorrectly reported promotions of Frontline Leader
                      Readiness Program participants)
                      The Initiative to Reduce Compliance Risks Associated With Delinquent Income Tax Returns
    2011-30-026
                      Filed After a Substitute for Return Assessment Could Be Enhanced
                      Compliance With Cost Accounting Standard 410, Allocation of Business Unit General and
    2011-1C-024
                      Administrative Expenses to Final Cost Objectives
    2011-1C-028       Contractor’s Calendar Year 2007 Incurred Cost Rate Proposal
    2011-1C-029       Follow-up Audit of the Contractor’s Office Space Utilization

    2011-1C-030       Limited Scope Audit of the Contractor’s Public Sector Billing System Internal Controls

    2011-40-031       Review of the Use of the Electronic Filing Identification Number
    2011-30-036       Fiscal Year 2011 Statutory Review of Compliance With Legal Guidelines When Issuing Levies
    2011-40-032       Interim Results of the 2011 Filing Season
                      Administration of the First-Time Homebuyer Credit Indicates a Need for Improved Controls Over
                      Refundable Credits (Funds Put to Better Use: $513,332,955; Revenue Protection: $531,134
    2011-41-035
                      and 96 taxpayers impacted; Taxpayer Rights and Entitlements: $11,718,500 and 23,437
                      taxpayers impacted.)




Page 76                                            October 1, 2010 – March 31, 2011                                    
 
                                     TIGTA Semiannual Report to Congress 
 
                                              Appendix III

             TIGTA’s Statutory Reporting Requirements 

TIGTA issued five audit reports required by statute dealing with the adequacy and security
of IRS technology during this reporting period. In FY 2011, TIGTA is working to complete
its 13th round of statutory reviews that are required annually by the IRS Restructuring and
Reform Act of 1998 (RRA 98). It will also complete its annual review of the Federal
Financial Management Improvement Act of 1996, and its annual review of the Office of
National Drug Control Policy (ONDCP) Detailed Accounting Submission and Assertions.
The following table reflects the FY 2011 statutory reviews.

         Reference to                    Explanation of the
                                                                           Comments/TIGTA Audit Status
      Statutory Coverage                     Provision

    Enforcement Statistics             Requires TIGTA to evaluate         Audit fieldwork in progress.
                                       the IRS’s compliance with
    Internal Revenue Code (I.R.C.)     restrictions under RRA 98 §
    Section (§) 7803(d)(1)(A)(i)       1204 on the use of
                                       enforcement statistics to
                                       evaluate IRS employees.


    Restrictions on Directly           Requires TIGTA to evaluate         Audit in report writing phase.
    Contacting Taxpayers               the IRS’s compliance with
                                       restrictions under I.R.C.
    I.R.C. § 7803(d)(1)(A)(ii)         § 7521 on directly contacting
                                       taxpayers who have indicated
                                       they prefer their
                                       representatives be contacted.



    Filing of a Notice of Lien         Requires TIGTA to evaluate         Draft report issued March 24, 2011.
                                       the IRS’s compliance with
    I.R.C. § 7803(d)(1)(A)(iii)        required procedures under
                                       I.R.C. § 6320 upon the filing of
                                       a notice of lien.


    Extensions of the Statute          Requires TIGTA to include          Audit in report writing phase.
    of Limitations for                 information regarding
    Assessment of Tax                  extensions of the statute of
                                       limitations for assessment of
    I.R.C. § 7803(d)(1)(C)             tax under I.R.C. § 6501 and
                                       the provision of notice to
    I.R.C. § 6501(c)(4)(B)             taxpayers regarding the right
                                       to refuse or limit the
                                       extension to particular
                                       issues or a particular period
                                       of time.




                                     October 1, 2010 – March 31, 2011                                           Page 77 
                                                               
                                      TIGTA Semiannual Report to Congress 
 
          Reference to                    Explanation of the
                                                                             Comments/TIGTA Audit Status
       Statutory Coverage                     Provision

    Levies                              Requires TIGTA to evaluate          Ref. No: 2011-30-036, March 2011
                                        the IRS’s compliance with           The IRS is protecting taxpayers’ rights
    I.R.C. § 7803(d)(1)(A)(iv)          required procedures under           when issuing systemically generated and
                                        I.R.C. § 6330 regarding             manually prepared levies. TIGTA reviewed
                                        levies.                             30 systemically generated levies identified
                                                                            through the Automated Collection System
                                                                            and Integrated Collection System and
                                                                            determined that systemic controls were
                                                                            effective to ensure that the taxpayers were
                                                                            given notice of their appeal rights at least
                                                                            30 calendar days prior to the issuance of
                                                                            the levies. In addition, TIGTA identified 60
                                                                            manual levies issued by employees on
                                                                            those same systems and determined that
                                                                            all the taxpayers were given notice of their
                                                                            appeal rights at least 30 calendar days
                                                                            prior to issuance of the levies.


    Collection Due Process              Requires TIGTA to evaluate          Audit fieldwork in process.
                                        the IRS’s compliance with
    I.R.C. § 7803(d)(1)(A)(iii) and     required procedures under
    (iv)                                I.R.C. §§ 6320 and 6330
                                        regarding taxpayers’ rights to
                                        appeal lien or levy actions.


    Seizures                            Requires TIGTA to evaluate          Audit in report writing phase.
                                        the IRS’s compliance with
    I.R.C. § 7803(d)(1)(A)(iv)          required procedures under
                                        I.R.C. §§ 6330 through 6344
                                        when conducting seizures.



    Taxpayer Designations –             An evaluation of the IRS’s          Draft report issued March 11, 2011.
    Illegal Tax Protester               compliance with restrictions
    Designation and Nonfiler            under RRA 98 § 3707 on
    Designation                         designation of taxpayers.

    I.R.C. § 7803(d)(1)(A)(v)

    Disclosure of Collection            Requires TIGTA to review            Audit in planning phase.
    Activities With Respect to          and certify whether the IRS is
    Joint Returns                       complying with I.R.C.
                                        § 6103(e)(8) to disclose
    I.R.C. § 7803(d)(1)(B)              information to an individual
                                        filing a joint return on
    I.R.C. § 6103(e)(8)                 collection activity involving the
                                        other individual filing the
                                        return.




Page 78                                            October 1, 2010 – March 31, 2011                                         
 
                                    TIGTA Semiannual Report to Congress 
 
         Reference to                   Explanation of the
                                                                         Comments/TIGTA Audit Status
      Statutory Coverage                    Provision

    Taxpayer Complaints               Requires TIGTA to include in      Statistical results on the number of
                                      each of its Semiannual            taxpayer complaints received are shown on
    I.R.C. § 7803(d)(2)(A)            Reports to Congress the           page 59.
                                      number of taxpayer
                                      complaints received and the
                                      number of employee
                                      misconduct and taxpayer
                                      abuse allegations received by
                                      IRS or TIGTA from taxpayers,
                                      IRS employees and other
                                      sources.


    Administrative or Civil           Requires TIGTA to include         Audit in report writing phase.
    Actions With Respect to the       information regarding any
    Fair Tax Collection Practices     administrative or civil actions
    Act of 1996                       with respect to violations of
                                      the Fair Debt Collection
    I.R.C. § 7803(d)(1)(G)            provision of I.R.C. § 6304,
                                      including a summary of such
    I.R.C. § 6304                     actions, and any resulting
                                      judgments or awards granted.
    RRA 98 § 3466

    Denial of Requests for            Requires TIGTA to include         Audit fieldwork in progress.
    Information                       information regarding
                                      improper denial of requests
    I.R.C. § 7803(d)(1)(F)            for information from the IRS,
                                      based on a statistically valid
    I.R.C. § 7803(d)(3)(A)            sample of the total number of
                                      determinations made by the
                                      IRS to deny written requests
                                      to disclose information to
                                      taxpayers on the basis of
                                      I.R.C. § 6103 or 5 U.S.C.
                                      § 552(b)(7).


    Adequacy and Security of          Requires TIGTA to evaluate        Information Technology Reviews:
    the Technology of the IRS         the IRS’s adequacy and            Ref. No. 2011-20-001, November 2010
                                      security of its technology.       Ref. No. 2011-20-006, December 2010
    I.R.C. § 7803(d)(1)(D)                                              Ref. No. 2011-20-007, February 2011

                                                                        Security Reviews:
                                                                        Ref. No. 2011-20-003, November 2010
                                                                        Ref. No. 2011-20-012, February 2011




                                    October 1, 2010 – March 31, 2011                                          Page 79 
                                                              
                                       TIGTA Semiannual Report to Congress 
 
          Reference to                     Explanation of the
                                                                           Comments/TIGTA Audit Status
       Statutory Coverage                      Provision

    Federal Financial                    Requires TIGTA to evaluate       Audit in report writing phase.
    Management Improvement               the financial management
    Act of 1996 (FFMIA)                  systems to ensure
                                         compliance with Federal
    31 U.S.C. § 3512                     requirements or the
                                         establishment of a
                                         remediation plan with
                                         resources, remedies, and
                                         intermediate target dates to
                                         bring the IRS into substantial
                                         compliance.


    Office of National Drug              Requires TIGTA to                Ref. No: 2011-10-021, January 2011
    Control Policy (ONDCP)               authenticate the IRS’s           TIGTA reviewed the IRS’s ONDCP
    Detailed Accounting                  ONDCP detailed accounting        Detailed Accounting Submission and
    Submission and Assertions            submission and assertions.       Performance Summary Report for FY 2010,
                                                                          which ended September 30, 2010. The
    National Drug Enforcement                                             IRS is responsible for preparing this report.
    Policy 21 U.S.C. § 1704(d) and                                        Based on the review, nothing came to
    the Office of National Drug                                           TIGTA’s attention that caused it to believe
    Control Policy Circular entitled                                      that the assertions in the report were not
    Annual Accounting of Drug                                             appropriately presented in all material
    Control Funds, dated April 18,                                        respects in accordance with ONDCP-
    2003.                                                                 established criteria. The IRS reported that
                                                                          it expended $61.3 million on ONDCP-
                                                                          related activities and completed 405
                                                                          ONDCP-related cases that resulted in
                                                                          convictions in FY 2010. The IRS also
                                                                          reported that it participated in 405 ONDCP-
                                                                          related cases that resulted in convictions,
                                                                          with an 82.3 percent conviction rate.




Page 80                                            October 1, 2010 – March 31, 2011                                        
 
                             TIGTA Semiannual Report to Congress 
 
                                      Appendix IV

                            Section 1203 Standards 

In general, the Commissioner of Internal Revenue shall terminate the employment of any IRS
employee if there is a final administrative or judicial determination that, in the performance of
official duties, such employee committed any misconduct violations outlined below. Such
termination shall be a removal for cause on charges of misconduct.

Misconduct violations include:

    •	 Willfully failing to obtain the required approval signatures on documents authorizing the
       seizure of a taxpayer’s home, personal belongings, or business assets;
    •	 Providing a false statement under oath with respect to a material matter involving a 

       taxpayer or taxpayer representative; 

    •	 Violating, with respect to a taxpayer, taxpayer representative, or other employee of the
       IRS, any right under the Constitution of the United States, or any civil right established
       under Title VI or VII of the Civil Rights Act of 1964; Title IX of the Education Amendments
       of 1972; Age Discrimination in Employment Act of 1967; Age Discrimination Act of 1975;
       Section 501 or 504 of the Rehabilitation Act of 1973; or Title I of the Americans with
       Disabilities Act of 1990;
    •	 Falsifying or destroying documents to conceal mistakes made by any employee with
       respect to a matter involving a taxpayer or taxpayer representative;
    •	 Committing assault or battery on a taxpayer, taxpayer representative, or other
       employee of the IRS, but only if there is a criminal conviction or a final judgment by a
       court in a civil case, with respect to the assault or battery;
    •	 Violating the Internal Revenue Code of 1986, as amended (the Code), the Department of
       the Treasury regulations, or policies of the IRS (including the Internal Revenue Manual)
       for the purpose of retaliating against or harassing a taxpayer, taxpayer representative, or
       other employee of the IRS;
    •	 Willfully misusing provisions of § 6103 of the Code for the purpose of concealing 

       information from a congressional inquiry;

    •	 Willfully failing to file any return of tax required under the Code on or before the date
       prescribed therefore (including any extensions), unless such failure is due to reasonable
       cause and not to willful neglect;
    •	 Willfully understating Federal tax liability, unless such understatement is due to reasonable
       cause and not to willful neglect; and
    •	 Threatening to audit a taxpayer for the purpose of extracting personal gain or benefit.

The Commissioner of Internal Revenue may mitigate the penalty of removal for the
misconduct violations outlined above. The exercise of this authority shall be at the sole
discretion of the Commissioner and may not be delegated to any other officer. The
Commissioner, in his/her sole discretion, may establish a procedure that will be used to
decide whether an individual should be referred to the Commissioner for determination.
Any mitigation determination by the Commissioner in these matters may not be appealed in
any administrative or judicial proceeding.

                              October 1, 2010 – March 31, 2011	                              Page 81 
                                                   
                                   TIGTA Semiannual Report to Congress 
 




Page 82                                            October 1, 2010 – March 31, 2011     
 
                           TIGTA Semiannual Report to Congress 
 
                                   Appendix V

               Implementing Section 989C of the 

              Dodd-Frank Wall Street Reform and 

                   Consumer Protection Act 

            Inspector General Peer Review Activity 

                October 1, 2010 – March 31, 2011 

Last Peer Review Conducted on TIGTA’s Office of Investigations

As part of the three-year cycle of independent peer reviews, the last peer review report
covering TIGTA’s Office of Investigations (OI) was issued September 8, 2008, by the
United States Department of Justice, Office of the Inspector General. There were no
outstanding recommendations included in the Report on the External Quality
Assessment Review. Their report stated:

      In our opinion, the system of internal safeguards and management procedures for the
      investigative function of the TIGTA is in compliance with the quality standards
      established by the PCIE.

TIGTA is scheduled to be reviewed this calendar year by the Social Security, Office of
the Inspector General.

Last Peer Review Conducted by TIGTA Office of Investigations

On March 2, 2011, TIGTA’s OI completed the peer review of the United States
Department of Labor, Office of the Inspector General (DOL OIG). There were no
recommendations included in the Report on the External Quality Assessment Review.
The report stated:

      After conducting the peer review, it is our opinion that the system of internal safeguards
      and management procedures for the investigative function of the DOL OIG for the review
      period are in compliance with the quality standards established by the PCIE, the CIGIE,
      and the Attorney General’s Guidelines. This review of safeguards and procedures
      provides reasonable assurances that the DOL OIG is conforming with professional
      standards related to its investigations.




                           October 1, 2010 – March 31, 2011                             Page 83 
                                                
                                   TIGTA Semiannual Report to Congress 
 




Page 84                                            October 1, 2010 – March 31, 2011     
 
                        TIGTA Semiannual Report to Congress 
 
                               Appendix VI

                 Data Tables Provided by the IRS 

The memorandum copied below is the IRS’s transmittal to TIGTA. The tables that
follow the memorandum contain information that the IRS provided to TIGTA and consist
of IRS employee misconduct reports from the IRS Automated Labor and Employee
Relations Tracking System (ALERTS) for the period of October 1, 2010 through March
31, 2011. Also, data concerning substantiated RRA 98 §1203 allegations for the same
period are included. IRS management conducted inquiries into the cases reflected in
these tables.




                         October 1, 2010 – March 31, 2011                     Page 85 
                                            
                                   TIGTA Semiannual Report to Congress 
 
            Reports of Employee Misconduct for the Period 

               October 1, 2010 through March 31, 2011 

                          National Summary 

                     (Tables Provided by the IRS) 

                                                                         Cases Closed
                                          Conduct
      Inventory          Opening                                                                          Closing
                                           Cases                                                Non-
      Case Type         Inventory                           Conduct
                                                                            Duplicates        Conduct
                                                                                                         Inventory
                                          Received           Issues
                                                                                               Issues


    TIGTA
    Investigations
    ROI71                         478              800           (813)                  (0)        (1)         464

    Administrative
    Case72                        699            1,538         (1,641)                 (25)       (13)         558

    Employee Tax
    Compliance
    Case73                        452            1,692         (1,631)                 (13)        (0)         500

    Background
    Investigations74              164              418           (390)                  (0)        (0)         192

    Total                      1,793             4,448         (4,475)                 (38)       (14)       1,714

Source: Automated Labor and Employee Relations Tracking System (ALERTS) 

This report is being produced in accordance with 26 USC 7803(d)(2) and § 4(a)2 of Treasury Delegation 

Order 115-01, January 14, 1999

Extract Date: Monday, April 04, 2011    Report ID = T1R1





71
   TIGTA Report of Investigation (ROI) - Any matter involving an employee in which TIGTA conducted an 

investigation into alleged misconduct and referred an ROI to IRS for appropriate action.

72
   Administrative Case - Any matter involving an employee in which management conducted an inquiry 

into alleged misconduct.

73
   Employee Tax Compliance Case - Any conduct matter that is identified by the Employee Tax 

Compliance program which becomes a matter of official interest. 

74
   Background Investigation - Any matter involving a National Background Information Center

investigation into an employee’s background that is referred to management for appropriate action.


Page 86                                            October 1, 2010 – March 31, 2011                               
 
                              TIGTA Semiannual Report to Congress 
 
        Reports of Employee Misconduct for the Period 

           October 1, 2010 through March 31, 2011 

               Summary by Disposition Groups 

                 (Tables Provided by the IRS)

            Disposition          TIGTA         Administrative      Employee      Background          Totals
                              Investigations      Cases              Tax        Investigations
                                                                    Matter
                                                                    Cases
    Removal                               42                  62            6                   6       116

    Separation of
    Probationary Employees                 8                  52            4               10           74

    Separation of Temporary
    Employees                              2                   9            0                            12
    Resignation/Retirement                50                  83           36               22          191
    Suspensions                          121                213            95                   4       433
    Reprimands                           124                327           418               10          879

    Counseling                            20                207           845               51        1,123

    Alternative Discipline                22                  68           26                   6       122
    Clearance                             53                152             5                           210

    Closed Without Action                175                251            90              129          645
    Closed Without Action
    (Caution Statement)                  191                174           102              152          619

    Forwarded to TIGTA                                        15            0                            16
    Suspended – Waiting
    Supplemental                           1                                                              1
    Termination for
    Abandonment of Position                                   25                                         25
    Termination for Other
    Than Job Abandonment                                       3                                          3
    Case Suspended Pending
    Employee Return to Duty                1                                0                             3
    Prosecution Pending for
    TIGTA ROI’s                            3                                                              3

    Total                                813               1,641        1631*              390        4,475

Notes:
 *Columns containing numbers of 2 or less and protected by I.R.C. Section 6103 are annotated with a 0.

Source: Automated Labor and Employee Relations Tracking System (ALERTS)
This report is being produced in accordance with 26 U.S.C. 7803(d)(2) and § 4(a)2 of Treasury
Delegation Order 115-01, January 14, 1999
Extract Date: Monday, April 04, 2011      Report ID = T1R3a



                               October 1, 2010 – March 31, 2011                                     Page 87 
                                                     
                                        TIGTA Semiannual Report to Congress 
      
                             Summary of Substantiated 

                          I.R.C. Section 1203 Allegations 

                       Recorded in ALERTS for the Period 

                      October 1, 2010 through March 31, 2011 

                            (Tables Provided by the IRS)


                                                                            Removed         Penalty          In
                                        Resigned/        Probation
§ 1203 Violation        Removals                                            On Other        Mitigated     Personnel    Total
                                         Retired         Separation                            75
                                                                            Grounds                        Process

Seizure Without
Approval                           0                0                  0              0              0            0         0
False Statement
Under Oath                         0                0                  0              0              1           
0         1
Constitutional &
Civil Rights Issues
                                   0                0                  0              1              0
                                                                                                     
            0         1
Falsifying or
Destroying
Records                            1                
0                 0              1              1
                                                                                                     
           
0         3

Assault or Battery                 0                 0                 0              0              0            0         0
Retaliate or
Harass                             0                0                  0              1              0            0         1

Misuse of § 6103
                  0                0                  0              0              0            0         0
Failure to Timely
File/ Under-
statement of Tax
Liability                          6                3
           
     0            10
             18           39
       77


Threat to Audit for
Personal Gain                      1
               0                  0              2
             0            0         3


Totals                             8                3
               
 1*           15
             20
          39
       86


     Notes:
         * Columns containing numbers of 2 or less and protected by I.R.C. Section 6103 are annotated with a
         0.

     Source: Automated Labor and Employee Relations Tracking System (ALERTS) and 1203 Review
     Board records.
     Extract Date: Monday, April 04, 2011




     75
       The cases reported as “Removals” and “Penalty Mitigated” do not reflect the results of any third party
     appeal.



     Page 88                                            October 1, 2010 – March 31, 2011                                
      
                  TIGTA Semiannual Report to Congress 
 
                  Glossary of Acronyms

                Automated Labor and Employee Relations Tracking
    ALERTS
                System
                American Society of Crime Laboratory Directors
    ASCLD/LAB
                Laboratory Accreditation Board
    AWSS        Agency-Wide Shared Services
    CADE        Customer Account Data Engine
                Council of the Inspectors General on Integrity and
    CIGIE
                Efficiency
    CIP         Compliance Initiative Programs
    DOD         Department of Defense
    DOL OIG     Department of Labor Office of Inspector General
    EFIN        Electronic Filing Identification Number
    EITC        Earned Income Tax Credit

    FCA         False Claims Act

    FISMA       Federal Information Security Management Act

    FSL         Forensic Science Laboratory

    FY          Fiscal Year

    GDI         Graphic Database Interface
    GPRA        Government Performance and Results Act
    GSA         General Services Administration
    I&E         Inspections and Evaluations
    IDRS        Integrated Data Retrieval System

    I.R.C.      Internal Revenue Code

    IRM         Internal Revenue Manual

    IRS         Internal Revenue Service
    IVES        Income Verification Express Services

    OA          Office of Audit



                   October 1, 2010 – March 31, 2011                  Page 89 
                                      
                                   TIGTA Semiannual Report to Congress 
 
    OFDP                       Online Fraud Detection and Prevention

    OI                         Office of Investigations

    OMB                        Office of Management and Budget

    ONDCP                      Office of National Drug Control Policy
                               President’s Council on Integrity and Efficiency/Executive
    PCIE/ECIE
                               Council on Integrity and Efficiency
    PFD                        Procurement Fraud Division

    PSEP                       Physical Security and Emergency Preparedness

    PTIN                       Preparer Tax Identification Number

    RRA 98                     IRS Restructuring and Reform Act of 1998

    SAMC                       Situational Awareness Management Center

    SB/SE                      Small Business/ Self-Employed

    SBU                        Sensitive But Unclassified
    SSA                        Social Security Administration
    Sun                        Sun Microsystems Incorporated
    TAC                        Taxpayer Assistance Center
    TIGTA                      Treasury Inspector General for Tax Administration
    TIRC                       Threat Information and Critical Incident Response Center

    TTY/ TDD                   Tele-Typewriter / Telecommunication Device for the Deaf

    UNAX                       Unauthorized Access

    XSF                        Excess Collection File




Page 90                                            October 1, 2010 – March 31, 2011         
 
 




 
 




 
